    H09L112622206 



                               ALLEGED MISCONDUCT: 

                                DR. SHIRLEY A. MILES 

                DIRECTOR, DEPARTMENT OF DEFENSE EDUCATION ACTIVITY 



I.            INTRODUCTION AND SUMMARY

        We initiated the investigation to address allegations that Dr. Shirley A. Miles engaged in
various misconduct. Based on multiple complaints to this Office and infolmation gathered in the
course ofthe investigation, we focused our investigation on allegations that Dr. Miles: l

         ..    Advocated the ..                             as a teacher, as well as the promotion or
               advancement of                                 a step increase resulting in an increase
               in starting pay) in                   United States Code, Section 3110 (b) (5 U.S.C.
               3110 (b)), "Employment of relatives; restrictions," 5 U.S.C. 2301, "Merit system
               principles," and 5 U.S.C. 2302, "Prohibited personnel practices";

         ..    Failed to provide fail' and equitable treatment to all applicants for employment,
               including persons with veterans preference, and provided an impelmissible preference
               or advantage to an applicant for employment in violation of 5 U. S. C. 2301 and 5
               U.S.C. 2302;

         • 	 Traveled for temporary duty (TDY) on flights that were ticketed with fares other than
             City-Pair fares or lowest available Govelllment fares, in order to obtain seat upgrades,
             in violation ofthe Joint Travel Regulations (JTR), Appendix P, "City-Pair Program/,
             and DoD 5500.7-R, "Joint Ethics Regulation (JER)," dated August 30, 1993;

         • 	 Claimed and was paid for per diem expenses associated with TDY when such TDY
             involved local travel in the Depattment of Defense Education Activity (DoDEA)
             headquarters commuting area in violation of 31 U. S. C. 3729, "False Claims," the
             JTR, and the JER;

         • 	 Claimed and was credited and paid for time in duty status during a period when she
             was on annual leave in connection with TDY in violation of31 U.S.C. 3729 and the
             JER;




         .. 	 Engaged in unprofessional conduct and speech at conferences and meetings with
              subordinates, military members, and members of the public, by using vulgar
              language, in violation ofthe JER.

1The incoming complaints contained several additional allegations. Based on our inquiry, we determined those
allegations did not merit further investigation and discuss them in detail in Section III of this report.

                                                                                                               b(8)
                                       FOR OFFIOIAL USE OHVl                                                   b(7){C)
H09L112622206                                                                               2



        We substantiated six allegations as follows.

        • 	 Advocated for and caused the hiring of a relative

         We conclude Dr. Miles advocated for and caused the hiring of 

violation of5 U.S.C. 2301,2302, and 3110, and the JER. We found 

was selected for a Japanese language immersion teacher position at Kadena t;l~~m(~nt:ary "''''lJlVVl
~apan. We determined that Dr. Miles US!i!d            her osition and authority to advocate for
____                      we determined that after            was hired, Dr. Miles intervened in a
     ma.tter on behalf             resulting in an annua pay increase of over $7,500. While

III         may have been            the pay increase based on her employment offer, education,
an 	 experience, Dr. Miles expressly advocated for the increase.

        • 	 Provided an impermissible preference 01' advantage to and selected a personal
            acquaintance for employment

        We conclude Dr. Miles engaged in prohibited personnel practices by providing an unfair
advantage to a personal acquaintance for a competitive position with DoDEA and selecting him
for the position, in violation of5 U.S.C. 2301 and 5 U.S.C. 2302. We found that Dr. Miles had a
friendship with a senior leader in the Hawaii public school system, who subsequently applied for
a competitive position as Superintendent, Japan District, DoDEA-Pacific. Dr. Miles
communicated frequently with her staff, the eventual selectee, and his spouse via telephone and
email about the position before she selected him for the position.

       • 	 Traveled for TDY on flights ticketed with fares other than City-Pair fares   01' the
           lowest available Government fare

        We conclude Dr. Miles traveled for official business on flights ticketed with fares other
than City-Pair fares or the lowest available Government fare in order to obtain upgrades in
violation ofthe JTR, the DoD Financial Management Regulation (DoD FMR), and DoD policy
on the use ofthe Defense Travel System (DTS) for official travel.

       • 	 Claimed and was paid for TDY per diem expenses to which she was not entitled

        We conclude Dr. Miles claimed and was paid for per diem expenses to which she was not
entitled in violation of 31 U.S.C. 3729, the JTR, and the JER, in connection with TDY travel to
Marine Corps Base Quantico, Virginia (Quantico), on March 24 and 25,2010. We found that
Dr. Miles traveled from her home in Alexandria, Virginia, to Quantico, in Prince William
County, and returned to her home at the end ofthe duty day. Quantico is in the Washington, DC,
local commuting area; therefore, Dr. Miles was not entitled to claim per diem expenses.

       • 	 Claimed and was credited and paid for time in dutystatus when on leave

         We conclude Dr. Miles claimed on her time and attendance record that she was in a duty
status, rather than on annual leave in May 2009. We found that in May 2009, Dr. Miles traveled


                                                                                                    b(6}
                                  FOR: OFFfCIAL USE OHLY
                                                                                                    b{7}{C)
H09L112622206                                                                                           3


to Japan on official business and took atillualleave in conjunction with such travel. Dr. Miles'
time and attendance record did not reflect a change in duty status and Dr. Miles was not charged
annual leave May 26,28, and 29,2009. We found that Dr. Miles did not prepare or self-cetiify
her time records at the time this occurred. We determined that Dr. Miles did not exercise her
responsibilities to review her time records and certify them as being correct and accurate. As a
result of her failure to do so, she claimed and was credited for being in a duty status for 3 days
when she was in a leave status.

         III   Engaged in unprofessional conduct and speech at conferences and meetings with
               subordinates, military members, and members of the public, by using vulgar
               language, in violation ofthe JER.

       We conclude Dr. Miles engaged in unprofessional conduct and speech that was
inconsistent with the nonnal standards of conduct expected of SES members as established by
5 U.S.C. 3131, the JER, and the Office of Personnel and Management (OPM) Guide to Senior
Executive Service Qualifications dated October 2006. Witness testimony established that
Dr. Miles used coarse and vulgar speech in public and private settings, including expletives. A
number of DoDEA employees and contractor representatives joked about her use ofvulgal' or
inappropriate language.




          By letter dated February 14,2011, we provided Dr. Miles the opportunity to comment
on the initial results of our investigation. In her response through counsel, dated March 4, 2011,
Dr. Miles responded to each initial conclusion, but noted three overarching concerns with our
preliminary repOli. Dr. Miles' response asserted that: our report was "vittually silent" with
regard to what Dr. Miles' immediate subordinates told investigators; there was a "dearth of
evidence to show that Dr. Miles was personally involved in any alleged wrongdoing that may have
been perpetrated by her subordinates; and the preliminary report appears to give signifioant weight to
the testimony of individuals who were biased against Dr. Miles."z


Z While we have included what we believe is a reasonable synopsis of Dr. Miles' response, we recognize that any
attempt to summarize risks oversimplification and omission. Accordingly, we incorporated comments from
Dr. Miles' response throughout this report where appropriate and provided a copy of the response to the Under
Secretary of Defense, Personnel and Readiness, together with this report.


                                                                                                                  b(B}
                                       FOR OFFIOJAL USE ONU!
                                                                                                                  b(7}{C)
H09Ll12622206                                                                              4


         We interviewed 45 witnesses in this investigation and did not assign a priority to any
individual or group of witnesses in compiling our report. We evaluated testimony, other
evidence, and standards to reach our conclusions and did not favor the testimony of any witness
or group of witnesses over any other.

         With regard to Dr. Miles' personal involvement in the alleged violations of standards we
note that Dr. Miles is responsible for her travel, travel claims, and time and attendance regardless
of whether she or someone else submitted documentation or completed an activity such as
scheduling travel. Additionally, we note that as the senior individual in DoDEA Dr. Miles has a
responsibility to show herself as one who abides by the standards of conduct that apply to all
Government employees.

        With regard to purported witness bias against Dr. Miles, we evaluated testimony, other
evidence, and standards to reach our conclusions and base those conclusions on the
preponderance of evidence.

         Dr. Miles' response noted that she came into DoDEA as an "outside hire," and assel1ed
that this upset a                                                 The response specifically
identified Dr. Miles'                                    as one who was upset. While we note
Dr. Miles' assertion, we        upon            sources of evidence to reach our conclusions and
not on the testinlOny of any single individual.

       This repol1 sets forth our fmdings and conclusions based on a preponderance of the
evidence.

II.     BACKGROUND

       Dr. Miles was hired by DoDEA in 2007 as the Principal Deputy Director and Associate
Director for Education (the Principal Deputy). The position was an SES billet and Dr. Miles
reported directly to the agency Director, Dr. Joseph Tafoya. Prior to being hired with DoDEA,
Dr. Miles was Superintendent of Tempe Union High School District, Tempe, Arizona.

        In June 2008 Dr. Tafoya retired and Dr. Miles was selected to be the Director in July
2008.

        As Director, Dr. Miles was responsible for an education system consisting of over 190
schools in the United States, Europe, and Asia, with more than 70,000 students. DoDEA
employs more than 12,000 employees, including approximately 8,700 educators. DoDEA's
organizational structure consists offour major components: Headqual1ers, DoDEA; Department
of Defense Dependent Schools-Europe (DoDDS-Europe); Department of Defense Education
Activity-Pacific (DoDEA-Pacific); and Domestic Dependent Elementary and Secondary Schools
(DDESS). DDESS encompasses school districts in eight States, as well as in Puel10 Rico and
Cuba.

        In 2009, Dr. Miles initiated a reorganization designed to focus educators' eff011s on
curriculum, instmction, and assessment with the goal of increasing student achievement. TIlis



                                  Fait OFFICIAL t1~E ONE i                                         b(6}
                                                                                                   b(7}{C)
    H09Ll12622206                                                                                          5

increase in achievement was to be measured by improved ~tandardized test scores. 3 The
reorganization divided leaders' duties involving logistics and administrative functions from those
related to student curriculum, instmction, and assessment. As a part ofthe reorganization,
Dr. Miles created a number of new positions exclusively responsible for either logistical, "bricks
and mortar" functions, or curriculum-centric functions. Key goals included removing logistical
functions from principals to enable them to spend more oftheir time in the classroom, using
assessment data in training teachers, creating and improving curriculum, and creating
standardization ofprograms, training, and curricula across DoDEA's areas and schools.

        Dr. Miles also created a position entitled Area Superintendent for Curriculum,
Instmction, and Assessment (Area Superintendent) for each DoDEA region: DoDDS-Europe,
DoDEA-Pacific, and DDESS. TIle Area Superintendents assumed responsibility for managing
and supervising the Area Office educational staff and district superintendents, and provided
executive leadership in identifying, planning, developing and implementing systemic core
educational programs for DoDEA students. Each Area Superintendent was to focus on
cun'iculum development, implementation, and assessment.

        In conjunction with the creation ofthe Area Superintendent positions, Dr. Miles directed
that the functions and responsibilities of the SES Area Directors be adjusted to focus exclusively
on administration, management, and operation of logistical matters within the school districts
under their jurisdiction, including school facilities, equipment, staffing, and supplies. Area
Directors remained responsible for serving as primary contacts between DoDEA and senior
commanders concerning education issues, but their authority over and responsibility for
curriculum and instmction issues was transferred to the Area Superintendents.

        As part ofthe reorganization, Dr. Miles authorized the fonnation of numerous subject
matter task groups and directed that they meet periodically to consider issues and make
recommendations to improve DoDEA's delivery of educational services, professional
development, technology enhancements, and other matters. In 2008 and 2009, Dr. Miles
traveled to DoDEA locations world-wide to explain the reorganization; meet with parents,
students, teachers, administrators, and commanders; lead DoDEA conferences; and meet with the
members ofthe task groups.

       In April 2009, Mr. Charles G. Toth was appointed as the Principal Deputy Director and
Associate Director for Education. Prior to his appointment as the Principal Deputy Director,
Mr. Toth served as the Assistant Associate Director of Education, after having been District
Superintendent for DoDEA's Korea District.

        In June 2010, Dr. Miles was removed as Director and detailed to a special assignment in
the office ofthe Deputy Undersecretary of Defense, Personnel and Readiness.



3DoDEA students participate in two primary testing measures: TerraNova, a standardized test that assesses student
achievement in reading, language arts, mathematics, science, vocabulary, spelling, and other areas; and the National
Assessment of Educational Progress (NAEP), a periodic assessment of student progress in mathematics, reading,
science, writing, and other subjects, conducted by the u.s. Department of Education.


                                        FOR: OFFICI:A:L USE ONLY
H09L112622206                                                                           6

III.   SCOPE

       We interviewed Dr. Miles and 45 witnesses, including DoDEA teachers, administrators
and staff employees, DoD employees, \l11ion officials, and employees of DoDEA contractors.
We reviewed DoDEA documents including reclUitment and hiring records, email and other
con-espondence by and between DoDEA employees, travel records, budget, and other financial
documents relating to DoDEA operations and contracts. We also reviewed contractor records,
including contract solicitations and notices, purchase orders, contract awards, and other
documentation.

       We reviewed and considered relevant Federal statutes and regulations relating to the
various allegations, including the JER, JTR, Federal Acquisition Regtllation (FAR) and other
Federal regulations governing merit system principles and prohibited personnel practices.

        The incoming complaints alleged Dr. Miles improperly used a Government Purchase
Card (GPC) to purchase personal items. We found that in late 2007, Dr. Tafoya authorized an
audit ofGPC purchases to address concems about possible misuse of GPCs within DoDEA's
headqua11ers. The audit identified two occun-ences in which a DoDEA GPC was used to
purchase business cards and con-espondence cards for Dr. Miles.

       Dr. Miles testified that sho11ly after she
purchased for her use. She added that she
together and purchased con-espondence cards,                 as     you notes and to write to
DoDEA employees or military leaders after her visits to a DoDEA school or a military
command. Dr. Miles testified that she and t h e _ also used the GPC to
purchase a red leather computer case which sh~siness only. The case cost
$467.50, including tax.

        Dr. Miles testified Dr. Tafoya notified her that the GPC purchases had not been made in
accordance with DoD policy or legal requirements and she was obligated to reimburse the
Govemment for the purchase. We found that Dr. Miles reimbursed the United States Treasury
for the amount detelmined to be due, totaling $1,382.05.

       We detelmined that while Dr. Miles' use ofthe GPC to purchase business cards and
cOlTespondence cards contravened the prohibitions and requirements set fo11h in the FAR, JER,
and DoDEA's GPC Users Manual dated March 15,2005, DoDEA addressed the issue intemally
through an audit and Dr. Miles promptly reimbursed the sums DoDEA detemlined to be due for
the unauthorized purchases. Accordingly, we determined not to investigate the matter fu11her.

        The incoming complaints also contained a number of allegations against Dr. Miles,
including prohibited persomlel practices, reprisal, waste or misuse of Govermnent resources,
interception of electronic communications, and engaging in prohibited political activity in
violation ofthe Hatch Act.




                                                                                                  b(6}
                                 FOR OFFIOI-AL USE ONLY                                           b(7}(C)
H09Ll12622206                                                                             7

        Based on the evidence obtained in our investigation, we detetmined the facts concerning
the following allegations did not rise to the level of senior official misconduct and consider them
not sUbstantiated.




                                                                                                      b(6}
                                  FOR OFFICML USE ONLY
                                                                                                      b(7}{C)
H09Ll12622206                            8




                FOR: OFFICIAL USE ONUI       b(6}
                                             b(7}{C)
H09Ll12622206                                   9




                FOR   OFFI8I~\L   USJiil 8HV{       b(6}
                                                    b(7}{C)
H09Ll12622206                                                                             10




IV.    FINDINGS AND ANALYSIS 





Standards

       Title 5, U.S.c., Section 3110, "Employment of relatives; restrictions"

        Section 3110(a) (2) defines "public official" as an officer (including the President and a
Member of Congress), a member ofthe unifotmed service, an employee and any other
individual, in whom is vested the authority by law, rule, or regulation, or to whom the authority
has been delegated, to appoint, employ, promote, or advance individuals, or to recommend
individuals for appointment, employment, promotion, or advancement in connection with
employment in an agency.

        Section 311O(a) (3) defines "relative," w~ub1ic official, as an individual
who is related to the public official, including a _

       Section 311 O(b) states a public official may not appoint, employ, promote, advance, or
advocate for appointment, employment, promotion, or advancement, in or to a civilian position



                                  FOR OFFICIAL USE ONb'f                                             b{6}
                                                                                                     b{7}{C)
H09Ll12622206                                                                                11


in the agency in which he is serving or over which he exercises jurisdiction or control any
individual who is a relative of the public official. An individual may not be appointed,
employed, promoted, or advanced in or to a civilian position in an agency if such appointment,
employment, promotion, or advancement has been advocated by a public official, serving in or
exercising jurisdiction or control over the agency, who is a relative ofthe individual.

        Section 311O(c) states an individual appointed, employed, promoted, or advanced in
violation ofthis section is not entitled to pay, and money may not be paid from the Treasury as
pay to an individual so appointed, employed, promoted, or advanced.

        5 U.S.c. 2301, "Merit system principles"

         Section 2301(b) (1) states recruitment should be from qualified individuals and selection
and advancement should be detennined solely on the basis of relative ability, knowledge, and
skills, after fair and open competition which assures that all receive equal opportunity.

         Section 2301(b) (2) states all employees and applicants for employment should receive
fair and equitable treatment in all aspects of persolmel management without regard to political
affiliation, race, color, religion, sex, or age and with proper regard for their privacy and
constitutional rights.

       Section 2301(b) (4) states all employees should maintain high standards of integrity,
conduct, and concern for the public interest.

        5 U.S.c. 2302, "Prohibited persOlmel practices"

      Section 2302(b) states that any employee who has authority to take, direct others to take,
recommend, or approve any personnel action, shall not, with respect to such authority­

        (6) grant any preference or advantage not authorized by law, rule, or regulation to any
employee or applicant for employment (including defining the scope or manner of competition
or the requirements for any position) for the purpose of improving or injuring the prospects of
any particular person for employment;

        (7) appoint, employ, promote, advance, or advocate for appointment, employment,
promotion, or advancement, in or to a civilian position any individual who is a relative (as
defined in section 3110(a) (3) ofthis title) of such employee if such position is in the agency in
which such employee is serving as a public official (as defined in section 311O(a) (2) ofthis title)
or over which such employee exercises jurisdiction or control as such an official;

        (12) take or fail to take any other personnel action if the taking of or failure to take such
action violates any law, rule, or regulation implementing, or directly concerning, the merit
system principles contained in section 2301 of this title.




                                   FOR OFHOJ,\L USE OHU! 

H09L112622206                                                                                     12




        The incoming                          that Dr. Miles asked her staff to fmd a job in Okinawa,
Japan, for Dr. Miles' new                       and           subordinate employees in Okinawa to
create a teaching position

        On June 27,2009, one of Dr. Miles'
k n e w _ for several years
employment as a teacher with DoDEA,          was     selected. In                        updated
her application to include the additional education and experience she had                  4 years
since she first applied for employment. _           selected Okinawa as her first choice for duty
location.

       _          testified that in         2009, she told Dr. Miles that she had applied for a
teaching pos1tion with DoDEA.                  stated that Dr. Miles did not communicate with her
about her job application and                     help her with her application for employment.

        In early March 2009, Dr. Miles talked with t h e _
application for employment with DoDEA. 7 On March~e
to Dr. Miles hUOlming her t h a t _ application was active in
application system and availab~eration for vacancies in kindergaw.rtn        rades one
through three and J~anese language immersion. In her email to Dr. Miles,
stated t h a t _ may be "within reach" to be hired for a Japanese immers10n teac mg
position. 8

          _            further explained that kindergarten and elementary teaching vacancies
in Okin~ally; and that school principals who recmit from the continental United
States (CONUS) do so to place teachers in other, hard-to-fill teaching      . such special
education,       as a second language, music, and other specialties.                  advised
Dr. Miles                chance of being hired from CONUS
                         aching categories to her application. The             wrote, "I just
               '11 ever be      to hire her as a CONUS hire exc                 language
                             requested_telephone number and offered to call her to
                          any other teac~ries she could add to her application.

       Dr. Miles and _                 communicated by email several more times on the
evening of March 19,~ on March 20,2009. On the evening of March 19,2009,
Dr. Miles wrote, "Let's consider her for the Japanese immersioll- at least she will have a foot




-
6   We refer
                                                                                                        as

7At the .                         that_ _ ~d a_ _with Dr. Miles. as Dr. Miles'. had
provided Dr.                       em~mSep~.
8 DoDEA offers a Japanese language immersion program only at Kadena Elementary School in Okinawa. It offers
individual Japanese language immersion courses at certain schools on mainland Japan.


                                      FOR OFFlOIAL USE ONVt                                                   b(6}
                                                                                                              b(7){C)
H09L112622206                                                                                   13


                    ...:"......."'" later Dr. Miles again wrote to the _           to. advise that she had
                                          would call her that evening. ~ded t h a t _ was
                                                       replied and infonned Dr. Miles that she was


        On March 20,2009, at 4:46 a.m., Dr. Miles                        and stated, "We
should be able to fmd her something." Three hours I                   emailed Dr. Miles and
told her she _               would c a U _ upon                       office. She stated she
wanted to ch~acancies h~ Miles replied, stating, "Maybe something in
Japan. How do young teachers get a job with us? We are never going to bring in new blood!"

        On March 31 2009 Dr. Miles sent an email to
DoDEA-Pacific - ) , inquiring
any elementary s~or had any open                                m
language immersion. Dr. Miles wrote, "I have a person who would be perfect and she speaks
fluent Japanese and is Okinawan!"

                                       responded several hours later and advised Dr. Miles that
                                   program in only one of the Okinawa Elementary schools. She
wrote:

         The principal is not expecting any of the teachers to leave; however, several have
         expressed interest in moving out ofthe immersion program into a regular
         classroom. Our elementary vacancies were submitted to the transfer program, but
         things change and vacancies do come up. If the person you're l'eferencing is
         qualified/cetiified and has applied so she would be on the referrallist, it's possible
         that there may be an oppoliunity later.

                                        ended her message to Dr. Miles by asking if the candidate
was                                , or if she could also teach Japanese at the middle school level.
On March 31,2009, Dr. Miles replied by email and stated that the candidate "is cetiified in
          and I don't know if she's certified in Japanese." Dr. Miles closed h e Ir basking_e
                              to let her know if a vacancy comes up in Okinawa.
              reSDOIIlOe:o as follows:

         If a vacancy comes up, r 11 certainly let you know. The principal at Kadena
         Elementary School is aware and will keep me infotmed. Ifthe teacher doesn't
         have certification in Japanese, she may want to work with ACTFL [American
         Council on the Teaching of Foreign Languages] to take an oral proficiency exam,
         if we are still accepting this for certification purposes as we have in the past.

                                      testified that the March 31, 2009, email from Dr. Miles was
the                 ever              . Miles about teaching vacancies in Okinawa. She added
that when she received the email correspondence, she did not know that Dr. Miles had a personal
connection to the candidate in question.




                                    FOR: OFPlOIAL USE ONlrY                                                  b(6}
                                                                                                             b(7}{C)
    H09Ll12622206                                                                             14


            On April 9, 2009, the secretary t o _ submitted a request for personnel
    action for a kindergarten teacher position~y School, with a proposed
    effective date of August 26,2009 (the beginning ofthe 2009-10 school year). The request for
    personnel action did not identify any particular person to fill the kindergalten position.

        On April 25, 2009, _                  emailed Dr. Miles that she wanted to assist Dr. Miles
in her efforts to         Do~g sure I provide you with what you can and cannot
do."                     added, "I'm here to do my job as y o u r _ but I also want to be a
                         Dr. Miles responded by email on Aprir26,2009.She thanked.
          and stated, "I need you there to      me out of trouble!" Dr. Miles then adde t e
                      . "Anything                     Mylll is bugging me, they want to get
                       She emailed                  again on May 3, 2009, and asked, "What's up
                          Anything

                             Dr. Miles emailed Mr. Toth and told him t h a t _ was
                               asked Mr Toth not to do or say anything. ~Mr. Toth
                                         whom he knew from previous d~ents in
                                         in finding a teaching position f o r _ He wrote:

          _       I have a favor to ask. _               is seeking CONUS employment as
          ~r with DoDEA and is ~nt in an Okinawa District
          elementary school. The positions she desires are kindergarten, a Japanese
          immersion classroom teacher position, or an elementary ~eferably in the
          lower grades. Any assistance you can provide in placing_ for SY 09-10
          would be greatly appreciated.

        In his email                                    Mr. Toth asked her to call him if she needed
any additional .ntiu......                          and her interest in a DoDEA teaching position.
Mr. Toth                                        I"\""",,£,p him with any insight she might have on
placement POS"lVIU"l\J                                He concluded his conespondence by stating,
"If employment for                                possible in Okinawa schools, I will inquire with
the Japan DSO                  enmenolem s Office]."

                                       testified she called Mr. Toth on May 7,2009, and discussed
                                           Mr. Toth there were no vacancies in Okinawa at the
                   one would come up in the future. She added that it would be wonderful if
          was an immersion teacher if a vacancy did occur. However, she told h i m _
may         able to be placed in a position due to local candidates or applicants with veteran s
preference.

       By email on             2009, Mr. Toth                                          that he had
spoken with                     re garding recmitment                                   wrote:



9Ivrr. Charles Toth, Prin~ Director and Associate Director for Education, DoDEA, testified that
Dr. Miles had discussed..-. employment interests with him before she sent the May 4, 2009, email.


                                    FOR OFFlOIltL USE ONLY                                             b(6}
                                                                                                       b(7}{C)
H09L112622206                                                                           15

       She _                 infolmed me that at the present time there are no excess ES
        [elel~achers needing placed. [She] recommended recmiting a
       Japanese immersion/K-3 teacher even though you may not need an immersion
       teacher for SY 09-10. This recmitment action will enable you to by-pass vets
       who could block an employment opportunity.




                                           with the
                                                      01'_
                                                      com~eratioll.                      For


                                    replied to Mr. Toth's email on May 13,2009. She advised
Mr.

       Charlie - we were planning to work this at Kadena ES for a KN [kindergat1en]
       position. This is the school where the Japanese immersion program is located.
       While there isn't an opening now in the immersion program, having another
       teacher on board at the school who can teach in an immersion classroom will be
       beneficial to both teacher and school. Should a VaCatlCY in an immersion
       classroom occur, there will be an intemal backfill.

                                                             email t o _ and the
                                                              stated, ~opied
                                                                 our HR."

        On May 18, 2009,                              sent a second response to Mr. Toth's
May 12, 2009, email and                                   She wrote that a        for personnel
action had been submitted for a position at Kadena Elementat·y
_              copied the email to Dr. Mi~t
~forwarded the message t o _
action.

   ~, the supervisOlY HR specialist for recmitment at DoDEA headquat1ers
e m a i l e d _ and stated,

                                    for a kindergat1en Japanese immersion position at
                                    has been name requested for this position. We will
       issue the ,·"'t,>...
                          ·<1             are no veterans on the list.

       On May 18 and 19,2009, HR staff members delivered several referral lists to _
_        for a kindergat1en                Elementary School. On May 19, 2009, at1 HR
~n at DoDEA emaile                              and delivered a CONUS referral list for a
teaching vacancy at Kadena me)m~mt.ary                         immersion, Japanese. On
May 21, 2009, an HR specialist at DoDEA emailed                      and delivered another



                                 FOR OFHerAL USE       onu;                                       b(6}
                                                                                                  b(7}{C)
 H09L112622206                                                                                            16


refelTal notice for the same vacancy. The latter email attached two refenallists, both of which
l i s t e d _ as an eligible candidate.

                                                                         and asked, "Has an offer been made
                                                                        responded to Mr. Toth on the


            Charlie - we have not made any CONUS offers yet to teachers. I would 

            recommend that we issue this offer along with others so it doesn't look 

            suspicious. 10 


        On May 22,2009, Mr. Toth emailed Dr. Miles and infoffiled her, ' _
position in Oki is set and will be offered as soon as CONUS hiring begins ..

      On May 26,2009, at 3:52 p.m.,                       onded to t h e _ at
DoDEA by email and announced that he                    to fill the kin~_atten a anese
immersion vacancy at K a   Element
                             _en     School.
                                       a            p.m., the same day,
_             forwarde                     message to Mr. Toth and Dr. lies statmg,
~pdated."

                             2009_DODEA'S     Chief Educator Staffing
                         emailed                        with copies to
                            DEA, an an R st mg specialist with UOut~A··ra,C1I1C
                    located in Okinawa, advising that he was contacting_
                     offer to her as a Japanese immersion kindergarten t~

        In her application for employment,_                                         to teach Japanese
language immersion for elementary grades~gh three.                             self-certification was
neither prohibited nor uncommon under DoDEA's                                   procedures. Under
those procedures, once a candidate is selected to fill a vacant position, DoDEA HR professionals
examine the candidate's application and SUPPOlting documentation to verify that the candidate
possesses the requisite celtification for the position in question. This certification process does
not occur prospectively due to the large numbers of applications DoDEA might receive for any
given vacancy.




                      owever,                                        on                 's HR
                     that DoDEA could o f f e r _ the                           position
contingent upon her successful completion of an OPI m Japanese before traveling to Okinawa.




10   At the time,                   had yet to select anyone to fill the kindergarten language immersion position.


                                        FOR: OFFICIAL USE ONLY                                                       b(6}
                                                                                                                     b(7}(C)
  H09Ll12622206                                                                                             17




          On June 19, 2009, DoDEA's                             sent a tentative offer of employment to
              The offer notified                                  loyment was contingent upon




        onlllul   6 2009, DoDEA's                             emailed Dr. Miles to advise that he had
 contacted             and infoffiled                           d issue an amended offer of ~nt
 contingent upon er passing the OP!.                                  noted to Dr. Miles t h a t _ was
 very glad that things had "worked out

          On July 6, 2009, DoDEA                     sent an amended offer of employment to
            for the Japanese language              position. The offer was contingent upon
            achieving the requisite proficiency level in Japanese within the first year. The same
              specialist at DoDEA                emailed her HR             in Okinawa and
 ~~~that

   an emergency        U\J'",U<,,,,       so she could be hired into the Japanese language
 immersion position at Kadena r,l~~m~mtlill'Y




 The offer maintained in DoDEA's file contains two different second pages to the five-page offer letter. Each of 

 13
he a es notes that the offer is contingent upon receipt of transcripts; however, the second version also states that 

           starting salary may be increased upon verification of her professional educator employment for 2005­
.. .   el er states the requirement to successfully complete an OPI before travel.


                                                                                                                         b(6}
                                          FOR OFHOIAL USE ONu{
                                                                                                                         b(7}{C)
H09L112622206                                                                               18


a n d _ and advised them she would begin the paperwork for approval of an
eme~
                                       sent a separate email
         It·            .•          • m requesting emergency
                                                 as he saw fit, to print it on ",","vv,
sign


can bring
anyway -- for a year.
follows:

        I have to bring her on as immersion. I have loads of locally qualified applicants.
        We absolutely cannot go CONUS for a 0095 kindergarten.




       Our justification for this action is that in order to implement a Japanese
       immersion kindergalien class we need to notify the community in advance that a
       new course is being offered. This allows the school one yeru' to prepare for the
       new curriculum.
                            -- what do you think ofthis justification? Can you add to it?

                                      replied                                     on July 8, 2009,
and

       The formal Request for Educator Emergency License, dated July 7,2009, stated that
         was "the only qualified CONUS applicant for [Kadena Elementary's] kindergarten,
               immersion program"                              consistent with DoDEA's
               July 7,2009, email to                             that DoDEA had no other


        The application document<; for the vacant                 that the foregoing statement
was not accurate. The refelTallists sent to                     disclosed that one ofthe referred
candidates was a CONUS-based fOimer                              repotied being national board or
state celiified to teach Japanese language immersion for kindergarten and elementary grades one
through six. Additionally, the applicant formerly taught Japanese language and culture at a
DoDEA school in Okinawa, and had several years' teaching experience as an elementary school
Japanese language immersion teacher and as a high school Japanese language teacher.



                                  FOR OFFICIAL USE       onu;                                        b(6}
                                                                                                     b(7}{C)
H09Ll12622206                                                                               19




                                       and sign
               email on July 15,2009, and
                The request for emergency licensure was           on
                 and by the Director, DoDEA-Pacific, before being sent to the   at
                    ers. The emergency license was approved at DoD~ was
officially placed in the kindergarten position as Kadena Elementary. ~ to
Okinawa on Govemment orders and began teaching in August 2009.                .

        Dr Miles testified that in addition to her email exchange with
                 regarding vacancies in Okinawa, she personally sp
                 about whether a vacancy had opened up yet during     LJV ...,JW.CL


 ;upenltltend~mts' conference in May 2009. Dr. Miles testified
                 she was'              the           on behalf
                                                    told her there were


                                      testified that when Dr. Miles first contacted her and asked if
she           any                       the question strange, because Okinawa's schools followed
DoDEA's teacher transfer policies allowing employed teachers to fill position vacancies
intemal1y by transfer before those vacancies are opened to hire by extemal candidates.

                                           also testified that when she first communicated with
Dr.                                                   language immersion position, she neither assumed
n.or knew Dr. Miles had a connection with the candidate in question. She add~, that
     rlA",llh, later told her she thought the candidate in question was Dr. Miles' _ _ _

                        This OCCUlTed b e f o r e _ was selected.

                                       testified that had Dr. Miles not inquired about vacancies
                                      garten Japanese language immersion, Kadena Elemenial
           d have hired for a non-immersion kindergarten position. She testified that had
                  and she not leamed fi'om Dr. Miles ofthe availability of a candidate cert led in
                            ''then we probably wouldn't have even considered thinking in those
terms because it's just so danged hard to get someone in that category."

                                       further testified she had never experienced the level of
                                       leaders at DoDEA headquarters conceming local school
vacancies as she exp                       the J          language immersion position for which
_ w a s hired.                                         commented that she could not believe
~would put in                   ways
did not recall previously having ...,,,,,,,""'£1
regarding job vacancies in Okinawa.                                   described the involvement
from DoDEA headquarters as creating a                                    and_
and stated, ''the more email traffic we got, the more -- the more I knew that~



                                   FOR OFFf01ALUSE ONLY                                                  b(6}
                                                                                                         b(7}{C)
H09L112622206                                                                           20


questioned about it, I would never be able to say that our intentions were pure."

       _                      testified that the position filled b y _ initially came open as
a kinde~apanese language immersion. He s~he first submitted a
request for personnel action on April 9,2009, to fill a kindergarten position coming vacant. He
added      he     learned of a            candidate for the immersion program in April 2009.
                                    fOlwarded Dr. Miles' initial em ails to him. At the time,
                                     the "perfect candidate" referred to by Dr. Miles was her
                         He stated he did not make the connection between_ and
                        had selected_ to fill the vacancy.

         _                      also testified                the request for personnel action
to fill t~cy,                                                sent him two referral lists on
May 18,2009. Those included                     were        to teach kindergalien only, as
opposed to kindergarten and language immersion. The referrals listed more than 20 candidates
for the position, including current and fonner DoDEA employees, family members, locally
residing candidates, and veterans. _                    added that he later received the referral
list for a Japanese language immer~_ was a qualified candidate,
after which he reviewed the candidates' applications. He ~etennined t h a t _
was best qualified to fill the vacancy.

       _                      stated he learned that           had not qualified as an immersion
teacher~opyofDoDEA's                                                   2009 e m a i l t o _
                             the results                                             fu~
                            not been               anguage                        would have
hired locally to              galien position and would not have made a kindergarten immersion
program available to parents. He noted that if the vacancy had been filled as "straight
kindergarten," no job offer could be made to a CONUS-based applicant due to the number of
people available locally.

         Dr. Nancy Bresell Area Director, DoDDS-Europe, was the Area Director for DoDEA­
Pacific at the timeiiiiiiiiili applied for and was select~nese language immersion
teacher. Dr. Brese~ involved in the selection 0 1 _ She testified thatll
_                           contacted her in the late     or           of 2009          sed
~ing asked to                                           whom
thought was going to be Dr. Miles'
later told her she was receiving ~UJl"''''Jll'''~
           candidates for the language immersion position.                     _
                 led her to believe she was being asked to create a language immerslon posltion
                   . Bresell stated:

       And I think                     was kind of concerned about it and felt
       that she was                   s what she should do. It's my
       understandin~asked her to create a kindergatien Japanese immersion
       program f o r _ class.




                                  FOR OFFICiAL USE OHUl                                             b(6}
                                                                                                    b(7}{C)
 H09L112622206                                                                                    21


       Dr. Bresell testified she recalled Dr. Miles specifically saying at DoDEA's July 2009
 Worldwide                    Conference in Philadelphia, Pennsylvania, that she had not known
                     had applied for a position with DoDEA and she had nothing to do with the
                position.

        _        was hired effective August 10, 2009. She d e _ ttheed United States on
August~ and atrived in Okinawa on August 11,2009.                        employment record,
approved on August 12, 2009, showed that she was hired initia yat a Step 1 pay rate, eaming
basic pay of$45,585.

        On August 13, 2 0 0 9 , _ contacted the
Principal regarding her pay s~ sec:retat "'...'''..... '''1
  'ovided documents supporting a change to 


t!fi!        educa_t'
 e one to change
                    on and rior

                                pay 

2009, and advised t le secretary 

                                           eXl)erlen.ce.

                                                pay
  ead uarters, s i n c e _ 
was a                 . On August 13,

M          forwarded the secretary~ 2009, email to DoDEA
 1m to a vise if HR had received_ employment verification

        Also on August 13, 2009, Dr. Miles'. emailed her to let her know
alTived safely. In his email, he told Dr. Mile':mat DoDEA headquatters v .... ~,'":",'''
employment paperwork incOlrectly, so that her pay was $10,000 less than what it
been. Dr. Miles'. told her that "people at Kadena              can't really speed up the
process to get it trx:d." He noted that the elTor would                            quarters
allowance, as well, which would affect                                                _     asked
Dr. Miles to talk with t h e _                        pay               as possi~

       On August 13,2009, Dr. Miles                       email t o _ and wrote,
"Please help them!" She then l'esponded to             wrote, "I can~ave
screwed          pay right out ofthe box.           care of it." She then emailed DoDEA's
               and other HR staff members, and stated,

        I hate to step in but since this involves 
                                   help. Please
        see if we can fix this right away as 
                                          Thank you
        for anything you can do for them. 


        On August 14, 2009, DoDEA HR cOlTected_ official employment record to
adjust her pay rate to Step 5, resulting in a salary in~re t h            $7 a
                                                                             500. _
                                                                                  On n
        15,2009, an HR technician at DoDEA Headquarters emailed
           and confimled that she       amended an offer of employment an ema1 e 1t to
                                               fOl'warded the email response t o _
                           ~ F> a copy
                        . .H   ••   .....       amended offer of employment ~t 15,
            atnended offer showed a Step 5 pay rate, with a new salary of $53,185.

14The email from DoDEA's HR Technician is dated August 16, 2009; however, it was retrieved from an email
server in Okinawa, therefore, it had actually been delivered in Arlington, Virginia, on August 15, 2009.


                                            FOR OFFIClAL USE ONU:                                          b(6}
                                                                                                           b(7}{C)
 H09L112622206                                                                           22



        On August 18,2009, Dr. Miles emailed_ to inform her that she had the HR
 department working on her salary issue. On August 28, 2 0 0 9 , _ emailed Dr. Miles and
 wrote:

       _           It was so nice to hear from you and I cannot thank you enough for
       ~l my pay matters handled so quickly! My school secretary was surprised
        that it happened so fast that I almost felt a little guilty.

Discussion

         We conclude Dr. Miles advocated for and caused
violation of 5 U.S.C. 2301,2302, and 3110. We found
was selected for a Japanese language immersion teacher                     Elementary School,
Okinawa, Japan. This position was newly created and reguired the applicant to meet specific
eligibility criteria for selection. Once selected,_ failed to achieve the required level of
certification for thMiiosition. Rather than rescit~r, DoDEA modified the employment
offer and allowed                to meet the program criteria over time. _    reported to
Okinawa in August 200 .

         5 U.S.C. 2301 requires that selection for a position be based solely on ability and skills
and only after fair and open competition. 5 U.S.C. 2302 prohibits any employee who has
authority to take, direct others to take, recommend, or approve any personnel action from
granting any preference or advantage not authorized by law, lUle, or regulation to any applicant
for employment (including defining the scope or manner of competition or the requirements for
any position) for the purpose of improving or injuring the prospects of any particular person for
employment. Additionally, public officials may not appoint, employ, promote, advance, or
advocate for appointment, employment, promotion, or advancement, in or to a civilian position a
relative if such position is in the agency in which such employee is serving as a public official.




       We also detemlined that prior to Dr. Miles'                    being hired, Kadena
Elementary School did not plan to have a .               apanese Immersion program. •
_                        testified that had Dr. Miles not inquit'ed about vacancies in O~awa
~e for an immersion position, Kadena Elementary would not have
considered that option. Testimony from the then Area Director, DoDEA-Pacific, cOfl'oborated



                                    FOlt OFFICIAL USE ONbY                                            b(6}
                                                                                                      b(7){C)
 H09L112622206                                                                                23

                                 contacted her about concems that she was         to create
  Ian a e                          Dr. M i l e s ' _ DoDEA's
_         in Okinawa testified that had the ki~on not been "."',.,........"u as a
 anguage immersion position, DoDEA would not have been able to justifY a CONUS hire
considering the many qualified candidates in the local area.

         Further, we detel1nined that w h e n _ failed to meet the conditions of her original
 employment offer, her offer was not resci~her DoDEA's HR specialists, with Dr. Miles'
 knowledge, modified the original offer to accommodate the lack of appropriate foreign language
 certification by delaying the immersion class until the following year, despite another qualified
 applicant on the referral list. By changing the requirements, the other applicant may have been
 disadvantaged .

          inan we detel1llined that Dr. Miles used her position
                   Upon atl'iving at Kadena Elementary School,
.eve sa- ary was less than originally offered given her              .
II  contacted Dr. Miles email and complained
Immediately contacted the                 and the L'v....,J.j.n.                and asked that the issue
be resolved. One day later;                                       pay     was adjusted upward, resulting
in annual pay increase of over $7,500.                           may have been entitled to the pay
increase based on her employment offer,                          experience, Dr. Miles expressly
advocated for the step increase.

        Based on the foregoing, we conclude that Dr. Miles advocated for and caused her
_                to be hired as a DoDEA employee, and later advocated for h e r _
~ she was hired. Accordingly, we conclude that Dr. Miles' actio~
provisions of 5 U.S.C. 2301,2302, and 3110 regarding employment of a relative and merit
system principles.

Dr. Miles' Response

        Dr. Miles, through cOlltlsel, asserted she did not "advocate for" or "cause"_ to
be hired. Rather, she stated she contacted the Superintendent of Schools in Okinawa, Japan,
twice by email inquiring about positions available in the Japanes~ram, and did
not contact anyone else to inquire, intervene, or advocate for h e r _ Our review of
email records established that this statement was inaccurate.

         Email records disclosed that Dr. Miles questioned the D o D E A _ several times
about the status o f _ application for employment with DoD~vening of
March 19, 2009, D~te in an email, "Let's consider her for the Japanese immersion­
at least she will have a foot in." Less than 15 minutes later, Dr. Miles again wrote to thell
_         to advise that she had t o l d _ t h e _ would call her that evening.

        Later email correspondence revealed Dr. Miles' active interest in the status of
                .         On March           Dr.. Miles     all email to
                  DoDEA-Pacific                               inquiring



                                    POK OPFfCIAL USE ONLY                                              b(6}
                                                                                                       b(7}(C)
H09Ll12622206                                                                                    24


_               "held back" any elementary school teaching positions or had any open positions
~r Japanese language immersion. Dr. Miles wrote, "I have a person who would be
petfect and she speaks fluent Japanese and is Okinawan!"




   Ma 4 2009, Dr. Miles emailed Mr. Toth and told him that t h e _ was

       W
"helping   She asked Mr. Toth not to do or say anything. Our r~dence
dis~ esplte Dr. Miles' request, Mr. Toth took an active role in securing the position
for~

                                                                and asked, "Has an offer been made
                                                                            to Mr. Toth on the
                                                                 "'.., ...·vu..."'...

                                                          '-"HUUJ'''' - we have not made any CONUS

                                                  we issue this offer along with others so it doesn't
look suspicious." On May 22,2009, Mr. Toth emailed Dr. Miles and informed her, . _
position in Oki is set and will be offered as soon as CONUS hiring begins."

        We found that after initiating the                                    hired as a Japanese
immersiiiliokinder  mien by contacting                                         Dr. Miles communicated
with the              and others                                                      and her level of
compensatIOn.      e etetmined that absent Dr. Miles' """.,v""                     likely would not have
been hired as a Japanese immersion kindergarten teacher in                      or had her compensation
issue resolved as quickly as it was.

        After reviewing and carefully considering the matters presented by Dr. Miles and
reconsidering the complete record of testimony, facts, and circumstances particular to the
allegation, we stand by our conclusion.

       B. Did Dr. Miles engage in prohibited personnel practices by providing an unfair
advantage and assistance to specific candidates for competitive positions and selecting such
candidates for hire in senior positions within DoDEA?

Standards

       5 U.S.C. 2301, "Melit system pIillciples"

       The standards set forth in Section A, above, apply.




                                   FOlt OFFICM:L USE: OHUt                                                 b(6}
                                                                                                           b{7}{C)
H09L112622206                                                                                           25


         5 U.S.C. 2302, "Prohibited personnel practices"

      5 U.S.C. 2302(b): Any employee who has authority to take, direct others to take,
recommend, or approve any personnel action, shall not, with respect to such authority­

        (6) grant any preference or advantage not authorized by law, mle, or regulation to any
employee or applicant for employment (including defining the scope or manner of competition
or the requirements for any position) for the purpose of improving or injuring the prospects of
any partiCUlar person for employment;

        (12) take or fail to take any other personnel action if the taking of or failure to take such
action violates any law, mle, or regulation implementing, or directly conceming, the merit
system principles contained in section 2301 of this title.



       The incoming complaints alleged that Dr. Miles hired personal friends and acquaintances
over other qualified candidates into senior positions in DoDEA.

       In early 2009, DoDEA issued ajob announcement for Area Superintendent vacancies in
Europe and the Pacific. 15 The job announcement was open for recmitment from Febmary 10 to
March 9, 2009. 16

                       staff developed a list of qualified applicants. On April 13,2009, the
                     emailed Mr. Toth and advised him there were 47 qualified applicants for the
                          positions, including extemal candidates and existing DoDEA
employees. Among the qualified applicants were a personal friend of Dr. Miles and a fOlmer
colleague from her tenure as a school district superintendent in Arizona. On May 20, 2009, Dr.
Miles selected each ofthese individuals to fill the respective Area Superintendent vacancies in
Europe and Asia. Dr. Miles made her selections after a complete application, evaluation, and
review pl'ocess took place in DoDEA headquarters for both positions.




16 DoDEA was simultaneously recruiting to fill vacancies for district superintendents in Europe, Korea, and Japan
The job announcement for those vacancies was open from February 1 until March 31, 2009.


                                                                                                                    b(6}
                                                                                                                    b{7}{C)
H09Ll12622206                            26




                FOR OFFICIfiL USE ONLY        b(6}
                                              b(7}{C)
H09Ll12622206                          27




                FOR OFHGIAL USE ONhY        b(6}
                                            b(7}{C)
 H09L112622206                                                                                               28




           District Superintendent,                         DoDEA-Pacific

         In early 2009, DoDEA published ajob amlouncement to fill vacancies in Education
Program Administrator (District Superintendent) positions in Europe, Asia, and several DDESS
districts in the United States. 19 TIle application period was open from February 1 through
March 31,2009. DoDEA announced the vacancies in professional publications specific to
educators and educational administrators, such as Education Week and the joumal ofthe
American Association of School Administrators. Mote than 200 people submitted applications.


                                                                                                                   met


                                                          in regular email communication with
                                                                 UF>'''F>''''U

                                   conce~                  application for employment with
                                         _:                       assistant. On March 3,2009,
she emailed Dr.                      a copy of                             resume for a
telephone conference between Dr. Miles and the                              . Miles replied to her
email several     after the telephone conference                   a very nice conversation with
[the                           Please let me know when he has completed his application.
        so                               _III                 emailed Dr. Miles on March 9,
2009, that she would email his j~es as soon as it was completed.


19   The announcement also sought to fill vacancies for Assistant Superintendent positions in various districts,


                                           FOR OFFlOiAL USB               onu:                                           b{6}
                                                                                                                         b(7}{C)
H09L112622206                                                                              29



       On March 10,2009, DoDEA's
infonned her that DoDEA had yet to re
superintendent's position. On March 10, 2009,
educator staffing section to inquire about the
He was infonned                                beenrp('.PHH>n


advised her that the                         had not yet applied. On March 1
emailed Dr. Miles                                 applications. He wrote:

        FYI -- To date DODEA has not received a~em       10 lent a lication from [an
        applicant for a different position] and [the                         Ifthey are
        interested in current vacancies, they shoul get t eu' app lCatlons submitted so
        they can be reviewed and rated for consideration.

        Dr. Miles responded to Mr. Toth on Marcl~ 2009, and stated, "How odd? I will email
them." She emailed the _ _ that day and asked her about the status of
               applicatio~er staff had infonned her they did not havell
                ..       .~ superintendency yet. She asked, "Did you send it?" The
                         ~nded by email and confinned that her husband had not yet
                         to DoDEA. She added that she and her husband would be workiniin
the application. Dr. Miles replied the next moming, thanking t h e _
                       . Miles emailed Mr. Toth inlmediately aft~t e
                       would deliver his application to DoDEA by the closing date ofthe job
                       31,2009).

                      2009 Mr. Toth emailed t h _ and asked him to provide
                                     applicatio~ added that Dr. Miles had
                                    who confinned that he would submit his application.

         On March 19, 2009, t h e _ I I emailed
to DoDEA's HR department. S~ same day to corrrmm
emailed the application, including a revised and updated resume. She asked Dr. Miles whether
she s h o u l d '                            another addressee. Dr. Miles responded by email,
telling the                                "I don't know for sure. I'll find out." Dr. Miles
emailed                                     later on March 19, thanking her and continning that
the appli                                      department.

                                                                                          and the
                                                                                     preceding day.
                                                                '(,C""'I1o" " Later that morning, the
                                                                       email to several HR staff
                                                                     asked whether DoDEA had
received                                                      staff members responded
promptly,                                                    through the staffing chief's files
and did not see an                                             He added that the staffing chief
had been out ofthe office the entire we                 was possible he had not yet printed the



                                  FOR OFFIOlzIi:L USE ONLY                                              b{6)
                                                                                                        b(7}{C)
 H09L112622206                                                                          30


_                        application. _ r e_
                                           iedand asked
                                                     _  that someone
~icationsinth~r.
wrote, "I need to be able to respond to Dr. Miles and I really don't want to te er 'we on't
know. ", He received a responc;e about 30 minutes later informing him that t h e _ was
working on the matter with assistance from another HR staff member and wou~w as
soon as information was available.

                      2009 before he had received a response to his query from h i s _
                             emailed Dr. Miles in response to her 4:45 a.m. emai1,~ted:

       Shirley - [ t h e _ applied to the General Superintendent
       announcemen~l. We have not paneled or rated any of
       these applications yet. This is the announcement for Supts and Asst Supts that
       we'll panel in April and be ready to generate refelTallists for any Supt or Asst
       Supt vacancies throughout DoDDS and DDESS. If you want to consider him for
       the Korea Supt vacancy, we need to make a refelTal from this announcement of
       the top candidates after the rating. We can't pull one application out of this
       announcement and rate/refer it alone.

Dr. Miles replied about an hour later and wrote, " . I want his [ t h e .
_          app. for_. I am not happy about the Korea candidates. I would like to
~ I only ~one I wanted to interview out ofthe 15."

        On March 24,2009, the _ _ emailed an HR recmitment
staffing specialist in DoDEA's ~=rued_ application. She
wrote                   the information as a result ofthe staffing s~_st
                                                                      laVlll contacted the
                         and stated that she was sending diplomas and          Declaration
                          under separate cover.

       On March 27,2009, the _ _ emailed Dr. Miles and fOlwarded
her March 24 message to the st~a~Dr. Miles stated, in part:

       SOlTy to bother you with this. Ijust wanted to be sure you knew that we sent
       everything as requested by and to [the staffing specialist]. I requested a
       confilmation that these emails were received and called her as well and left a
       phone message. We have not heard back from her either way. Thus, I am
       sending to you. We want to be sure that DoDEA has everything for [the]
       application.

      Dr. Miles replied on March
Immediately after emailing the
_        She wrote, "I think
~,March 30, 2009, the ~"'UUI,V
     March       2009, email to his
                    wrote that a




                                 FOR OFFICIAL UaE ONLY                                        b(6}
                                                                                              b(7}{C)
H09L112622206                                                                             31


           "I'm sending this to you to make sure that we're not missing anything on [ t h e .


      On March 31,2009, the c lin0date
                                   !i  ofthe
                                        i i i'ob
                                              ii announcement,
                                                  i'            Mr. Toth emailed the
                  regarding the                       application for t h e .
              position, He state :

      I hate to bother you with this, but Shirley wants me to move on two applications
      that are supposedly on file in HR now. She is interested in intervll'ewin [a
                  for the Isles assistant superintendent position and [the
                        for t h e _ Superintendent vacancy. Ifthe app lcahons for
            two are on file, co~ave a copy for review and I will set up the
      interviews.

                                responded on March 31,2009. He provided Mr. Toth with
                                       ofthe applications, together with copies of the requested
                                       email to Mr. Toth included the following comments:

      Charlie - none ofthe Superintendents and Assistant Superintendents have been
      rated yet. ... After the candidates are rated, they must be ranked and we must
      observe veterans preference in hiring. I hope it does not work out this way, but it
      is possible that either or both ofthese individuals may be blocked by a veteran.
      We cannot pull 2 applications like this from all ofthe applicants and refer and
      select them.

      Here are the individuals' resumes, but an interview at this point is improper and
      we could not appoint these individuals until they've been rated, ranked and
      refen'ed along with other candidates. If we receive any complaint about the
      selection of either individual, an interview for consideration before the
      applications have been rated and referred along with the other best qualified
      candidates will be viewed as a violation of merit system principles and Federal
      Staffing requirements, ...

                      week, Dr. Miles and the _ _ discussed the
                         application. She wro~~O, to ask on.
                            application process, including how it would to notitY
everyone. She asked if Dr. Miles needed anything else from
Dr. Miles replied on April 6, 2009, and stated:

                              just sifting through the applications. [The_
                        is at the top of my list but we do have to look a~ler
              uons.
      <41J1J>n,. .         [Federal Govenllnent] process does take some time so please
      be patient. It took me nearly six months to hire my Deputyl It won't take that
      long for the superintendents but it will be at least one more month. Thank you for
      being the "go between"! :-) Shirley



                                                                                                   b(6}
                                FOR: OFFICIAL USE ONLY
                                                                                                   b(7}{C)
 H09L112622206                                                                                               32

         The _ _ responded several hours later and thanked Dr. Miles
 for writing. -=-~es, "Personally we're on pins and needles, ("fired up
 and ready to gol") but know patience is a virtue. Yes, we can .... be patient." Dl'. Miles replied
 on April 7,2009, "No wonies!"

       DoDEA convened a rating panel on April 27, 2009, to evaluate the applications and rate
the qualified candidates. The rating panel included district superintendents representing each of
DoDEA's geographic areas. The rating panel met from April 27-29, 2009, at DoDEA
headquarters and reviewed and rated each ofthe qualified candidates' applications.

        The rating panel scored t h e _ application as within the top 15
qualified candidates. Another Ca11~eteran and fOlmer DoDDS teacher
and a retired public school district superintendent, who had a 5-point veteran's preference (the
veteran). TIle rating panel rated the veteran's application within the top 10 applications; after
accounting for the 5-point preference, the veteran's application was the second highest rated
application of all qualified ca11didates for the positions. 20

       In early May 2 0 0 9 , _ instructed the HR """'L"''''''F.
refenallists showing the t o = a l candidates for the
superintendent vacancy. The                                     the veteran, and              candidates
were refen'ed to Dr. Miles for                                    reviewed the applications ofthe
candidates on the refenallists and selected nine candidates to interview. 21 T h e _
                 and the veteran were among the extemal candidates to be interv=:r. The
             ""11\.1\.,'",,,,\.1 interviews for June 8-9, 2009.




        On May 28,2009, t h e _ emailed the                                                          and confinned a
telephonic interview for the jo~ 2009. TIle                                            "u......L.L~''''
                                                                                                      the veteran and
other candidates for the position to confinn their .",.. "uuv...",,,,

          Following the interviews of all candidates, Dr. Miles selected the
to fill the vacancy for                                                 June
mailed a fonnal offer of                                               to serve as the
Superintendent,

~ June                            29, 2009, after the fonnal offer of employment had been mailed,
_                             emailed Dr. Miles and Mr. Toth, with copies to t h e _ and an


20The rating panel scored the veteran's ap~-point veteran's preference, his application
scored as 97. The rating panel scored t h e . _ _ _ application as 86.
21Dr. Miles had identified a tenth candidate she wanted to interview for the vacant positions, but he did not submit
an application. Therefore, only nine applicants were interviewed.



                                         FOR OFFlOIhL USE ONLY 	                                                        b(6}
                                                                                                                        b(7}{C)
H09Ll12622206                                                                                            33


HR staffing specialist, re~on of the                                                                 for t h e .
Superintendent position. _   wrote:

                                      is a veteran who was ranked higher than [ t h e .
                                         for consideration for District Superintendent positions. To select
                                                      we must document the reasons we are bypassing the


          I have prepared a justification based on the interview documentation and his
          resume. If you concur, with this, we'll include it with the case file
          documentation. If you have any recommendations to make this stronger, I would
          welcome them.

       The draft justification stated that the veteran did not provide a "coherent or responsive"
answer to one ofthe interview questions. It also stated the veteran did not possess ~'a knowledge
or understanding of CutTent educational teclmology." Finally, it stated the veteran's experience
"does not provide [the veteran] with the depth or breadth of knowledge of sch~rams,
problems, and issues necessary to effectively manage a district the size o f t h e _ . "

        At 10:40 p.m. on June 29, 2009 Dr. Miles replied, "W
betted" The following d a y , - r wrote to                                     and stated, "I
think we can go with the j u s _ a r d with                                 veteran] of his non-
selection. I haven't heard back from Charlie [Toth] yet, but ifhe has any recommendations to
strengthen the bypass justification, I'll include them in the final memo."

                                                           a rationale for the decision to bypass
the veteran in favor ofthe                       other than the draft justification pl'epared by
the HR Deputy Director.                            nor any other witness provided a substantive
explanation for the grounds upon which the bypass justification was reached.

                                  testified Dr. Miles had the prerogative to select t h e _
                                 whether or not she knew him in advance, if she cons=:ran the
'i".UU1V ..'          and made a determination he was the best candidate for the position. He
               V"11\.tH.,,, . .,,,,


added that where a veteran is among the qualified candidates for a position and a non-veteran is
selected, there must be compelling reasons for the selecting official to justify bypassing the
veteran. He confinned that he had been tasked to prepare the memorandum seeking approval to
bypass the veteran, but stated that the justification itself would have to have come from Dr. Miles
as the selecting official. He added he could not specifically recall what the reasons were for not
selecting the veteran.

       Dr. Miles testified she first met t h e _ when she traveled to Hawaii
with Dr. Tafoya. Dr. Miles futiher testifie~
whenever she visited Hawaii on business. She stated that she had v ... ",n,...
_              for a number of years before he applied for t h _ S 
           position.
~ she m e t _ on
 one of her visits, but she c~t recall when the first
meeting occurred. 



                                                                                                                   b(6}
                                                  FOR OFFlCIAL USE ONLY
                                                                                                                   b(7}{C)
H09L112622206                                                                                 34


        Dr. Miles could not recall                                  and Mr. Toth had emailed her to
update her on whether the
nonnal course of business
applied for a position, and what was    h~1"'1nf'in

_ ad in uired about the status of the
                had asked her ab

        Dr. Miles stated that had any other  . ant asked her and written to her, she would have
responded to them just as she did with the                        . . When asked if any
other applicant did so, she responded with  names                 =cants for positions, none
of whom was a candidate for the Japan Superintendent position. 22

        When!i!iiiiesented
                        with Mr. Toth's March 31, 2009, email to the _
regarding the                                                       D~ she
                                       application for emPl0i!fiiijent
had not had any IscusSlOns w1t 1 Mr. Toth about having the                         fill the
vacant position. She stated s h j i merel
                                    i i i i italked
                                              i h awith
                                                    d Mr. Tot a out t e app lcatIon and added
that Mr. Toth "knew       [the                         was applying, because he had met [the
                        aswel."

         Dr. Miles testified that she could not recall the veteran's application. She s!fl!tated"I don't
                      veteran]." She added she did not recall what it was about the
                   application that stood out compal'ed to the veteran's application, an s e could
                  ~~~"""" under which the veteran was bypassed in connection with her
                                                   asked          the bypass justification
memorandum was "{\tn"'1~h                                      put together or something that
contained Dr. Miles' specific reasons                                Dr. Miles responded, "Well, I
didn't write it." She added that her comment to                                III couldn't have said it
better," indicated she had no objections to the lH"",HV1U.u"'U1H              HR staff could process
it in the nomlal course of business.

Discussion

         We conclude that Dr.
 artiICi[lat~)d
              in the hiring ofthe
          in violation of 5 U.S




                                                                                                           b(6}
                                    FOR OFFlOrAL USE ONLY
                                                                                                           b(7}{C)
H09Ll12622206                                                       35




     District Superintendent,            DoDEA-Pacific

        We conclude Dr. Miles provided an unfair advantage to t h e _ for a
competitive position, Superintendent,_, D o D E A - P a c i = ' the
position, in violation of 5 U.S.C. 230~


                                                                              b(6}
                                FOR OFFICIAL USE OHU!
                                                                              b(7}{C)
H09Ll12622206                                                                                   36

                                                                               had developed a personal
relationship well before the                                                      osition with DoDEA. We
found that Dr. Miles nAtArn,in<>n                                                    to fill the_vacancy
before she had ... Vll'''l.....,l                                          .u"~J1111111g in ear1~h 2009,
Dr. Miles afforded                                                        in particular, full access and
                                                                           submitted an application for the
                                   position.                        would not be improper, particularly had
    ""'."11•.•..,... "111ll11<\1 opportunities to other applicants for the position. However, we found no
evidence that other applicants were extended the same courtesies. We were not persuaded by
_ h a t she would have afforded other applicants the same access, and that the
_                                  was the =eient of her comiesies and personal involvement in the
apphcatlOn process because his _                 had been able to make contact with her,

         AdditionallY!I!!IIIwe
                           found that Dr. Miles personally involved herself and her senior leaders
in ensuring that the                         submitted his application before the position vacancy
closed. We found no eVI ence t at s e I the same for           of    other qualified applicants for
 he osition. For example, after the                                 notified Dr. Miles thatlll
_          had submitted his application,                                          directly to
co 11'111 the status ofthe application. The                                         not less than
four HR staff members in detennining                                         actually submitted an
application for the position.


                                                                                               the
                                                                           position. We fmiher found
                                                                       aOtmCiau'oon specifically for the


                                                                                ob application process
                                                                                               . Toth

                                                       responded that the
          even interviewed for the                    until after DoDEA
ofthe applications for the                vacanCIes. He noted that veterans preference must be
observed in the hiring process. He infOlmed Mr. Toth that while he _ u t
that way, it was possible a candidate with preference could block t h e _
from being hired into the position.

         We found that DoDEA received an application from the veteran, an UIJ~'l1"'Ull'
                 preference, and that the rating panel ranked him higher than the
                without considering the veterans preference. Dr. Miles selected
                over the veteran. Again, this is not impennissible so long as the
              Justified by the selecting official, specifically, Dr. Miles.

        We found no evidence ... v,., ....'u"...u.,F.         on which the veteran was bypassed,
other than the draft bypass justification that                           prepared for Dr. Miles'


                                                                                                          b(6}
                                         FOR OFFIOIAL USE <»TLY                                           b(7}{C)
H09Ll12622206                                                                                     37


 i nature. Further, we find it significant in the context ofthe iJ!iII!!election
                                                                              rocess that the    I
Ii        mailed DoDEA's fOlmal offer of employment to the
Dr. Ml es or Mr. Toth
selection of the veteran.
                                                                                            be ore
                                    commented on the draft bypass Just! lcation concerning non-
                                                     testified that the draft justification had to have
been based on                                            in her capacity as selecting official.
However, he added he                                    such specific infonnation. Dr. Miles
testified she did not provide                           with any input for the justification.




                                                                                              and advised
                                                                                               Fi~
                                                                                              the_


Dr. Miles I Response

       Dr. Miles stated that all three candidates for the position ofSuperintendent, _
_       DoDEA-Pacific, went through the same hiring process --                   we::='uated
bybotha rating panel and an interview panel, and noted that the                        was
chosen at the end of that process. She also stated that
"acquaintance," and not someone she had known for "years.

                         the length of their relationship, we reviewed testimony from Dr. Miles and the
                               with        to their first meeting. In response to our question, "When did
                                                      Dr. Miles responded, "It was with Dr. Tafoya, so it
had to be in 2008,                                                confll1ned he first met Dr. Miles during
Dr. Tafoya's tenure as                                             first met in '''07 [or] '08 around there."
       on        review, we accept Dr. Miles' assertion that she had not known thjijji
                     for "years," and note that they first met in 2007 or 2008 when ~ was the
          IWP'l'-rr,.., DoDEA. Consideration of this fact did not alter our conclusion on this

allegation.

        Regarding whether Dr. Miles afforded the same treatment to all applicants, a review of
emails disclosed that on March 4 , _ 2before
                                          009   the              window closed, Dr. Miles advised
another potential applicant for the                                       are filled." Email
records also disclosed that Dr. Mi es engage 111 an                      of emails w i t h _
ofthe selected applicant regarding the status of his application and selection for an intervlew.

       Although Dr. Miles asserted she would have provided the same level of suppoli to
anyone who requested it, we found no evidence that she did, or that she attempted to refer the
requester to an appropriate office in DoDEA to respond to the requests. Given her position as


                                                                                                                b(6}
                                     FOR OFFI8Ilds USE ONU:
                                                                                                                b(7}{C)
H09Ll12622206                                                                            38


the selecting authority we find her assertion that she did not provide an unfair advantage to the
selected candidate unpersuasive,

        Dr. Miles also wrote that she did not recall the veteran bypass justification because the
event took place 2 years ago, Our review ofthe veteran bypass action disclosed no evidence
documenting                              veteran was bypassed, other than the draft bypass
justification                              prepared for Dr_Miles'   si aUtre. Further, we fmd it
significant in the                                 that the              mailed DoDEA's fonnal
offer of employment to the                            before Dr. Ml es or Mr. Toth approved or
commented on the draft bypass                 concerning non-selection ofthe veteran.

        After reviewing and carefully considering the matters presented by Dr. Miles and
reconsidering the complete record of testimony, facts, and circumstances partiCUlar to the
allegation, we stand by our conclusion.

        C. Did Dr. Miles travel for TDY on flights ticketed with fares other than City-Pair fares
or the lowest available Government fare in order to obtain upgrades?

Standards

       JTR, Volume 2, "Department of Defense Civilian Personnel," dated June 1, 2009

        Paragraph CI058, "Obligation to Exercise Pmdence in Travel," requires that the traveler
exercise the same care and regard for incurring Government travel expenses as a pmdent person
traveling at personal expense.

        Paragraph C2000-A, "Travel and Transportation Policy," requires travelers to use
economy/coach-class transportation accommodations unless otherwise specifically authorized
under the JTR. It fU11her states that City-Pair ahfares should be used for transpol1ation where it
is offered. Paragraph C2000-A. 5, provides that a traveler is personally financially responsible
for any additional expense accmed by not complying with paragraph C2000-A.

        Paragraph C2000-C, "TDY Travel Involving non-PDS Location(s)," states that when an
employee's TDY travel is to or fi'om a non-pelmanent duty station (PDS) location, the traveler is
responsible for any excess travel or transportation cost, and the constmcted cost for each leg of
travel must be based on Government "YCA" City-Pair contract fares, if available.

       Paragraph C2001-A.2(a), states that the use of City-Pair airfares is to the Govennnent's
advantage, and such airfares should be used for official air travel. Paragraph C2001A.2(b)
provides that the use of non-contract air service may be authorized only when under specific,
enumerated conditions and if specific authorization and justification is shown on the travel order.

       Paragraph C4564, "Employee's Leave Canceled or Inten'upted," provides that an
employee who is required to perfonn TDY at a place away from the pelmanent duty station to
which the employee has traveled for personal reasons, is authorized per diem, as well as
transportation expenses for the return trip which exceed those which the employee otherwise
would have incun'ed if the employee had not been required to perfornl the TDY. However, the


                                                                                                      b(6}
                                  FOR OFFICiAL USE ONU!                                               b(7){C)
 H09Ll12622206                                                                                           39


 paragraph also states that ifthe TDY requirement is known before departure on leave, the
 employee is reimbursed actual travel expenses not to exceed the constmcted round-trip cost
 between the pennanent duty station and TDY location, and adds that City-Pair aitfares are not
 authorized for use to and from the leave location ifthe TDY requirement is known before leave
 is begun.

        Paragraph C4564, Sub-paragraph G, "TDY Directed at Leave Status Tennination,"
provides that an employee on authorized leave away from the PDS who is directed, at leave
telmination, to proceed to a TDY location and upon TDY assignment completion to return to the
PDS, is authorized per diem and transportation expenses only to the extent travel relating to the
TDY assignment exceeds the direct route travel constmcted cost from the leave location to the
PDS. It also states that if, in relation to the place at which the employee is on leave, the TDY
location is located in a routing direction through and beyond the employee's PDS, the allowable
per diem and transportation expenses are limited to that for roundtrip travel between the PDS and
the TDY location.

           Appendix P, "City-Pair Program"

       The City-Pair Program requires DoD travelers on official business to use City-Pair
contract can'iers unless a specific exception applies. 23 Part II, Paragraph B.2, prohibits a traveler
from choosing not to use a contract cal1'ier because of personal preference, frequent flyer clubs,
and other reasons. It states that such action violates the City-Pair contract and Department policy
and regulations.

         Part I, Paragraph A.6, provides specific exceptions to the use of contract cal1'iers,
including the following travel conditions which must be certified by the traveler or authorizing
official on the travel order or authorization: 24

       • 	 Space or scheduled flight is not available in time to accomplish the travel purpose, or
           contract service would require the traveler to incur utmecessary overnight lodging costs
           that would increase the total trip cost;

       • 	 The contract cal1'ier's flight schedule is inconsistent with explicit policies of individual
           federal depa11ments and agencies to schedule travel during nOlmal working hours; or,

       • 	 A non-contract (DoD-approved) U. S. certified catTier offers a lower aitfare available to
           the general public, the use of which results in a lower total trip cost to the Government, to
           include combined costs oftransp0l1ation, lodging, meals, and related expenses.

        Prut I, Paragraph A.7, mandates specific requirements for a traveler's use of non-contract
fares. It expressly states that cal1'ier preference is not a valid reason for using a non-contract



23The Joint Travel Reguiations provide that regulations applicable to the contract City-Pair Airfare Program are
found in Defense Transportation Regulation 4500.9-R (DTR), Part I, Chapter 103, paragraphs A2 and B2.
Appendix P is an edited extract from the regulation.
24   See DTR, Part I, Chapter 103, paragraph B.2.


                                          FOR OFFICIAL USE ONU:
H09Ll12622206                                                                                40

aitfare. Additionally, one of the foregoing exceptions in Paragraph A.6 must be met, the use of
non-contract aitfare must be approved on the travel order/authorization, and

    • 	 If airfare is restricted, non-refundable, or has specific eligibility requirements, the traveler
        must know 01' reasonably anticipate that the ticket will be used; and

    fit   The traveler's agency must detennine that the proposed non-contract transportation is
          practical and cost-effective for the Government.

          Part II, Paragraph D.3, defines City-Pair amare rates as follows:

    fit   YCA Fare: Guaranteed Govemment Services Agency (GSA) economy/coach class
          City-Pair airfare which is a highly discounted unrestricted airfare. Ifthe Govemment
          contract City-Pail' can-ier offers a lower cost capacity-controlled coach class contract fare
          than the unrestricted YCA fare, the traveler should use the lower cost capacity-controlled
          fare when it is available and meets mission needs.

    • 	 CA Fare: Litnited capacity, GSA coach/economy class City-Pair airfare which is a
        capacity controlled airfare with a deeper discount prefen-ed by the Government.

        Part II, Paragraph D.3, additionally provides that when a CA fare is available, the ability
to use personal frequent-flyer 01' mileage reward points in connection with official travel is not a
valid reason to request YCA amal'e. If a traveler elects to use a YCA fare when a lower cost
capacity-controlled coach class contract fare is available and the cost exceeds the cost ofthe
lower cost capacity-controlled fare, the traveler is financially responsible to the Govemment for
the cost difference between the YCA ait-fare and the lower capacity-controlled airfare.

      DoD 7000.14-R, "DoD FMR," dated January 3,2011, Volume 9, Chapter 2,
"Defense Travel System"

        Section 020302 provides that the traveler is responsible for preparing initial
authorizations, amendments and post trip vouchers using DTS. Additionally, it provides that the
traveler also is liable for any false or fraudulent written or oral statements under the False Claims
Act (18 U.S.C. 287, 18 U.S.C. 1001, and 31 U.S.C. 3729).

      Memorandum dated Marcil 28, 2008, by Under Secretary of Defense, Perso1l11el and
Readiness, Subject: Mandatory Use of tile Defense Travel System (DTS).

       Following a travel study conducted as required by the FY 2007 John Warner Defense
Authorization Act, the Under Secretary of Defense, Personnel and Readiness, mandated the use
ofDTS as the single, online travel system used by DoD, for all travel functions supported by the
system and those that will be suppol1ed by DTS in the future, as they become available.



        TIle incoming complaints alleged Dr. Miles showed a blatant disregard for the travel
regulations established by the JTR by predominantly flying on United Airlines, ensuring she
traveled on an upgradeable fare, and scheduling TDY travel so that she could upgrade her flights.


                                     fOR OFFleIAL tl8E ONLY
H09L112622206                                                                                               41

         As the Director, Dr. Miles traveled frequently to DoDEA locations around the world for
site visits, conferences, meetings with military commanders and senior leaders, and when
emergent issues required her attention. In a December 20, 2008, email to an acquaintance,
Dr. Miles commented that she flies I'business class" most ofthe time on her business trips.

        Travel authorizations for all employees within DoDEA, except the Director, were
reviewed for approval by the Resource Management Division (Resource Management) in
DoDEA's Directorate for Finance and Business        erations        When Dr. Miles was the
Principal Deputy Director,                                              reviewed and approved
her travel authorizations.                                                      official under
the JTR, was exempt from such review.

                                      when Dr. Miles became Director and was authorized as a
self-c                                  no longer reviewed and approved her travel orders. As
a self-cel1ifying                         authority to approve her own travel, but she did not
have the authority under the JTR to approve her own travel vouchers and authorize disbursement
offunds upon the completion oftravel.

        Dr. Miles developed her travel schedule with the input of headqual1ers staff and
leadership in DoDEA's three geographic areas. Many travel requirements, such as conferences,
were scheduled and amlotated on Dr. Miles' calendar well in advance. Some travel OCCUlTed
with relatively little advance notice. When Dr. Miles detetIDined it was necessary to travel to a
particular location at a particular time, she would COnfilID the requirement with her EA, who then
would make all necessary travel arrangements, including air transportation and lodging.
Dr. Miles testified she nonnally received her travel itinerary from her EA shortly before
depaliing on official business.

        DoDEA's official travel was serviced by Carlson Wagonlit Travel (CWT), a global travel
services company. CWT is a Government contractor that has provided travel services to DoDEA
and its employees for a number of years, including all times relevant to this investigation.

         Mr. Kevin Kelly, Director, F&BO, testified that in early 2008 he began to have concerns
about travel by DoDEA employees and felt that travel in DoDEA as a whole was "out of
control." Mr. Kelly testified he believed employees had simply been booking travel as they
wanted, without regard to DoD travel requirements and regulations. He found that employees
routinely called CWT to schedule travel and did not use DTS as required by DoD policy. As a
result, he issued three travel bulletins to all DoDEA head~uarters staff in May, June, and August
2008, to provide policy guidance to DoDEA employees. 2 Mr. Kelly testified that the travel
bulletins were intended to supplement applicable travel regulations, policies, and guidance, and
to establish localmles for using DTS. The bulletins included references to applicable travel
regulations.

         The first travel bulletin, dated May 30, 2008, addressed the following topics:



2S:Mr. Kevin Kelly testified the travel bulletins were not targeted at Dr. Miles. Dr. Miles was not the Director at the
time :Mr. Kelly issued the first two bulletins.


                                                                                                                          b(6}
                                         FOR OFFICffltL USE ONLY                                                          b(7}(C)
 H09Ll12622206                                                                                              42

            • 	 TDY must be necessary and the number oftravelers appropriate for the mission.
                Mr. Kelly wrote that often DoDEA appeared to send more employees to a conference
                or other event than might be necessary;

            .. 	 Travel routes cannot be chosen for the convenience ofthe traveler;

            III   DTS is not intended to accommodate travel selections based on a traveler's personal
                  choice without regard for costs. If travelers are unable to book tickets through DTS,
                  they are to contact designated commercial travel office representatives. They are not
                  to contact CWT directly; and

            • 	 Seat upgrades, such as those obtained through frequent flyer miles, must not result in
                a cost increase for the flight. Mr. Kelly noted that in some instances flight schedules
                had been cancelled and re-booked at a higher fare in order for a passenger to upgrade
                seats.

       The second travel bulletin, dated June 5, 2008, stated that travel requests will not be
processed unless it is clear that the travel is the most cost-effective option. He noted that
Resource Management will review each TDY travel request for accuracy and the least cost to the
Government. He added that Resource Management will question obvious cost overruns, which
could cause travel orders not to be completed. 26 Mr. Kelly's second travel bulletin also
addressed conference planning and site selection in some detail.

         The third travel bulletin, dated August 1,2008, identified the requirement that official
travel, not processed through DTS, must be arranged through an available contracted commercial
travel office (CTO). Mr. Kelly noted that recent incidents were reported where a DoDEA
traveler bypassed the local CTO in scheduling TDY travel, resulting in aitfare that exceeded the
amount the Government would have paid had travel been scheduled through the CTO. Mr. Kelly
explained that under such circumstances the JTR prohibits reimbursement ofthe excess
transportation costs paid by the traveler. He noted that it was each traveler's responsibility to
follow applicable travel regulations.

           _          testified that she booked Dr. Miles' TDY travel until the Spring of 2009,
by usin~ find and schedule flights and by contacting DoDEA's point of contact in
CWT. We obtained and reviewed with representatives of CWT travel documentation for 29 trips
in 2009-2010. 27 During that time period, Dr. Miles traveled extensively within the United States,
Europe, and Asia. Ofthe 29 trips we reviewed, we identified the following occasions where
tickets were not booked using the lowest Government airfare available:


            • 	 February 16, 2009, Washington, DC (Dulles International Airport) to San FranciSCO,
                California. Dr. Miles traveled with United Airlines, at a round-trip fare of $922.20.


26   We discussed the allegations relating to conference planning in Section III of this report.
27The identified trips include instances in which a trip constituted the return leg of extended travel in connection
with Dr. Miles' official travel during TDY.


                                                                                                                       b{6}
                                            fOR OffICIAL USE ONLY
                                                                                                                       b{7}(C)
H09L112622206                                                                                 43


           The City-Pair aitfare for the same route was $169.00 each way, for which tickets
           were available. The City-Pair travel was not direct, however, while the United
           Airlines flight was direct and non-stop. Dr. Miles' travel authorization for the TDY
           states, as justification for the non-contract fare, that the traveler is authorized to use
           non-contract air carrier and non-contract aitfare.

       • 	 June 2,2009, Washington, DC (Dulles) toFrankjilrt, Germany. Dr. Miles traveled to
           Gemlany to attend and speak at the Bamberg High School commencement exercises.
           Dr. Miles traveled on United Airlines. Booking notes made by CWT at the time
           stated that a lower aitfare was available for the flight, but that the fare was declined
           because the traveler wanted to upgrade.

       .. 	 June 28, 2009, Las Vegas, Nevada, to Naples, Italy. Dr.
            in Las Vegas at the end of June 2009 in order to attend
            initiated official travel from Las Vegas to Munich, Germany, via                , Colorado.
            Dr. Miles was traveling to the Navy Leadership Conference in Naples, Italy.
            Dr Miles'           from Denver to Munich was on an upgradeable ticket.
                                      testified that the DoDEA employee who called to book
                                  requested the early issuance of a ticket, not a reservation,
            for Dr. Miles. The           issuance of a ticket enables the traveler to get on the
            airline's upgrade list.                           added that early ticketing was out
            ofthe nOlm under                                  es for tickets to be issued 3
            business days before the scheduled travel.

       • 	 July 14, 2009, Las Vegas, Nevada, to Philadelphia, Pennsylvania. Dr. Miles traveled
           from Las Vegas to Philadelphia to attend the Military Child Education Coalition
           Conference and the DoDEA Worldwide Superintendents' Conference. CWT's
           booking notes for the flight show that a lower Govennnent fare was available for the
           flight and that Dr. Miles' EA was notified ofthe Govemment airfare. CWT's
           booking notes also show that Dr. Miles' EA declined the lower aitfare and advised
           CWT that the reason for the declination was that the passenger needed to be on the
           selected flights.

       CWT's travel dooumentation for Dr. Miles showed other occasions on which Dr. Miles'
United Airlines tickets were upgradeable but were purchased at the lowest available Govemment
fare.

       Mr. Kelly testified he leamed of Dr. Miles' planned Febmary 2009 travel to San
Francisco aboard a United Airlines flight and he contacted her to express his concems. He
emailed Dr. Miles on Febnlary 11, 2009, and wrote in pad:


       Shirley, There is a travel issue buming here that COllcems me. While we have
       agreed that when you, Charlie [Mr. Toth] or I travel we can bypass DTS contract
       carriers if the cost is not that great a difference. In the case of travel to San
       Francisco the cost differentiation is approx $600. I feel that this is [too] great a



                                                                                                          b(6}
                                   peat OPPICIAL USE ~qVt
                                                                                                          b(7}{C)
H09Ll12622206                                                                              44

         differential to ignore. I recommend both you and Charlie change your tickets to a
         contract carrier.

         I t h i n k _ l believes you and Charlie require all their flights to be booked
         on Uni~less ofthe cost factor. This makes it look as if you are flying for
         the purpose of frequent flyer miles, which is prohibited.

         Dr. Miles replied to Mr. Kelly's email the same day, thanking him for his comments. She
wrote:



         [Government's] time and money for me to not fly a direct route. I know,    in.
         I believe because we travel so much that we have the right to be comfortable
         when we fly. Also, I think it is a waste of my time and therefore the

         nine years, he always flew United. I'm not saying I'm flying for the miles out
         you, Charlie and I are different from the rest ofthe teanl because our jobs require
         us to fly most of the time. After two full weeks oftravelling by plane, train, and
         automobile, I want to fly to San Fran. directly; no stops.

       Dr. Miles' calendar showed that prior to her Febmaty 16, 2009, travel to San Francisco,
she had attended DoDEA's Worldwide Counselors Conference and Principals Conference, in
Leipzig, Germany, from FebmaIY 2-6, 2009, and conducted DoDEA task force meetings in
Germany the following week, prior to returning to the United States on Saturday, Febmary 14,
2009.

         In June 2009 Dr. Miles was scheduled to travel to the Kingdom of Bahrain to visit
DoDEA's school there, participate in the commencement exercises, and attend meetings
concerning DoDEA's provision of education services in Bahrain. She decided to travel to
Bahrain with D o D E A ' s _ . Dr. Miles a n d _ planned to
travel from Washington~Dubai, and take ~

        In April 2 0 0 9 , _ assistant created a travel authorization for the
trip and booked a flig~gh Dubai. The aitfare exceeded $5,900. After
reviewing the authorization_ contacted CWT and inquired about the nOlmal
route and related costs. C~ the Government fare was approximately $2,300,
for travel to Bahrain via Frankfmi, Germany.

         _                disapproved the travel authorization
inform~pon r _                      t ofthe
                                        ee   dis ai roved travel
_             assistant met witl                     and stated
~ Dr. Miles, and Dr. t es mten e to travel
responded that while she had no      over Dr. Miles' travel, she would not approve the travel
authorization                              to fly to Bahrain via Dubai. Shortly thereafter, the
                                                    Dubai, and both he and Dr. Miles booked travel
                                The airfare for the trip was less than $2,500 each.

        In May 2 0 0 9 , _ went to                                      and~erwanted
to sign Dr. Miles' tra~ns.                        TtH''''''"''TT',."   one o f _ points of


                                   FOR OFFIOIAL USE ONLY                                             b(6}
                                                                                                     b(7}{C)
H09Ll12622206                                                                               45

contact at CWT called her and asked what was going on with the Director's travel. 28 _
        sponm:a she was not aware of anything and asked what CWT's concem was. ~
                   was calling CWT to book flights for Dr. Miles, and was telling CWT that
Dr.                 on specificlii   ts. When CWT pointed out there were cheaper flights
available for Dr. Miles' travel,        would reject the less expensive fares and advise that
Dr. Miles had to be on the specific fhght she had requested.

       _infonned
concem~iles' travel.                                                         in tum briefed
Mr. Kelly. Mr. Kelly directed that she                                            to detennine what
was happening and what CWT's travel notes

        OnMay22,2009,_                                                                traveled to
CWTto discuss DoDEA'~ld                                                                   she
reviewed various CWT notes regarding specific TDY trips in which Dr. Miles (throug~
rejected lower fare flights in order to obtain tickets that could be upgraded, including D~'
June 2009 travel to Frankfurt, and her July 2009 travel to Philadelphia.

       _                 testified that CWT concluded Dr. Miles' flights were being scheduled
so as to~ed                              tickets instead of capacity-controlled tickets (which
could not be upgraded).                     also testified that she had leamed from CWT that
DoDEA employees                              travel for travelers at DoDEA headquarters called
CWT directly to book flights rather than using DTS to arrange flight schedules.

      The week a f t e r _ met with the CWT representative, she prepared
documentation for Mr. ~est. The documents included references to the use of
DTS, excerpts from or references to the JTR, the and                  . On
June 2009 Mr.           and Dr. Miles




        _                   testified that Dr. Miles questioned all of the attention that had been
focuse~ asked why her travel was                             treated              than that of her
predecessor, Dr. Tafoya. She added                                               responded that the
issues raised related to Dr. Miles' travel,                                        being made was
intended to keep Dr. Miles out of trouble.                       testified he recalled Dr. Miles
saying in response that she did not want to                     was not legal 01' pennitted by the
JTR regarding her travel.

       _           testified that it had been made clear to her that Dr. Miles wanted to be
booke~lines and that she had been directed to schedule flights for Dr. Miles on
United Airlines. _            could not say specifically when Dr. Miles ever told her expressly
to book flights o~es, but it was clear that Dr. Miles wanted to fly with that carrier.

   testified she
28 _ _ _                                                           called~use                    of the
co~ the initiali>"Il'"uulUll'.                                    andthe.._._

                                                                                                          b(6}
                                   FOR: OFFIOIAL USE OliLY                                                b(7}{C)
H09Ll12622206                                                                             46

She continued that she routinely argued with CWT representatives to ensure Dr. Miles was able
to obtain a flight in a fare category that was upgrade able, even though she believed she was
scheduling Dr. Miles' travel in violation ofthe JTR. She stated that, as a result, she rarely
booked Dr. Miles on a City-Pair fare, and that booking Dr. Miles on the upgradeable ticket was
often two 01' three times more expensive than the City-Pair fare for the same travel.

       _    also prepared Dr. Miles' travel authorizations and travel vouchers for
payme~r. Miles neither reviewed nor signed her authorization or voucher
documents.       testified that she used DTS to schedule Dr. Miles' travel, but she was
able to use    avoid the less expensive, non-upgradeable flights. She stated:

        If I knew she had to travel, say, on January 15th, but even though I knew about it 

        in December, I'd wait until like January 10th. I'd check every day. I'd go into 

        DTS and check flights and check flights. And pretty soon you could see where, 

        "Okay, now I can book her on, now I can do it today, because all flights on the 

        cheaper airlines are booked out. They're gone." 


        That's how I could get around it, get around doing -- booking a flight. Because
        n01TI1ally if you were going TOY, you're not going to wait until 5 days before.
        You're going to, as soon as you know you're pretty much going to book your
        flight and make sure you have it. But I would be very vigilant about checking the
        DTS evel'Y day.

       _                also testified she could not recall when Dr. Miles told her she should call
United ~uest upgrades for Dr. Miles' flights, but she knew that as soon as she had
booked Dr. Miles on a flight, she was supposed to call United Airlines and get Dr. Miles
upgraded 01' placed o.thegrade
                            u         list. She explained that since Dr. Miles was a United Airlines
"l-K Member:' she               would simply call United Airline's 1-K desk, provide the
reservation number, an request an upgrade for Dr. Miles. United Airlines 1-K status is reserved
for frequent fliers who travel 100,000 or more miles in a calendar year. United provides
complementary seat upgrades from Economy to Economy Plus on all flights for 1-K members.
Dr. Miles testified that she had eamed approximately 300,000 miles with United Airlines during
her travel on official business.

        In mid-2009, Mr. liell   determined that there were no checks and balances relating to
Dr. Miles' travel because          planned the flights and booked them, celiified Dr. Miles' travel
authorization, then took care 0 tl'avel vouchers when the travel was complete. Mr. Kelly stated
he infOlTI1ed Dr. Miles and her Chief of Staff that F&BO would not accept any future travel
paperwork that did not have different signatures on it. Mr. Kelly testified that when he brought
these matters to Dr. Miles' attention she responded, "I don't actually book my travel. So if
something is going wrong, it's because my admin person is not doing it right." He added he
found this to be a problem because Dr. Miles would not pennit anyone within F &BO to review
and approve her travel, but could then claim she was not at fault if something went wrong
because she did not schedule her own travel.

        Dr. Miles testified that her first concem regarding official travel always was to ensure
that the travel was being scheduled in accordance with the JTR. She was unable to offer an

                                                                                                       b(8}
                                  FOR: OFFiCitltL USE ONLY                                             b(7}{C)
H09Ll12622206                                                                              47


explanation conceming the specific 2009 travel we refer to above. She noted that the
Febmary 2009 travel to San Francisco immediately followed a several week period when she had
been traveling considerably to and from Europe. She added that in consideration ofthe amount
oftraveling she had been doing, she thought it was appropriate to travel to San Francisco
directly, rather than on a non-direct flight. This was consistent with Dr. Miles' comments to
Mr. Kelly several days before the travel, in which she told him she wanted to fly to San
Francisco directly.

         Dr. Miles testified that she had traveled to Las Vegas at the end of June 2009, to attend
                       She paid her own way from Washington to Las Vegas, and left for the
          on         ,June 26,2009. She testified that because of the confluence o~
          the requirement that she travel to Europe for the Navy Leadership Conference, .
Dr. Miles required that her travel be arranged for departure from Las Vegas, rather than retUl11
first to Washington, DC.

Discussion

        We conclude Dr. Miles traveled for official business on flights ticketed with fares other
than City-Pair fares or the lowest available Government fare in order to obtain upgrades in
violation ofthe JTR, the DoD FMR, and DoD policy on the use ofDTS for official travel.

         CWT records indicated that between 2009 and 2010, Dr. Miles traveled on official
business more than 25 times. _           scheduled her travel as often as possible on flights ticketed
with fares other than the City-Patr fare or lowest available Govemment fare. We also found that
_                scheduled Dr. Miles to travel on United Airlines whenever possible in order that
~d obtain ul!ii!ades                throu her United Airlines frequent flyer travel benefit
program. We found tha                      would manipulate the DTS system to attempt to book
tickets for official travel a er tIe owest available Govenmlent fare seats had been sold and,
thereby, to obtain upgrade able tickets for Dr. Miles.

        We detennined that Dr. Miles traveled on official business on flights that were not
booked using the City-Pair or otherwise lowest Govel11ment fare available. On several occasions
in 2009, Dr. Miles traveled on official business using tickets that were not scheduled using the
lowest available fare at the time they were booked. For example, when Dr. Miles traveled to San
Francisco in Febmary 2009, she did so on a non-stop United Airlines flight, at an expense to the
Govel11ment $584.00 greater than the City-Pair fare would have been to travel to San Francisco.
The JTR specifically prohibits the scheduling oftravel for the convenience ofthe traveler. We
found no provision in the JTR or elsewhere authorizing the Director, DoDEA, to approve her
own travel using a non-contract carrier 01' on a non-contract fare, when a less expensive contract
catTier or contract fare was available.

        We found that the Director, F&BO, issued travel advisories to DoDEA employees about
travel on official business after becoming concerned that official travel by DoDEA employees
was "out of control." We further found that the Director, F&BO, cautioned Dr. Miles directly
about specific travel she had scheduled for herself as a self-certifying official, and that Dr. Miles
did not welcome his guidance.



                                                                                                        b(6}
                                   FOR: OPPWfAL USE OHV{                                                b(7}{C)
H09Ll12622206                                                                             48

        We determined that DoDEA's flight scheduling practices for Dr. Miles and other
personnel in 2009 caused concerns for CWT. CWT representatives inquired into travel
scheduling for Dr. Miles and other DoDEA officials, resulting in a June 2009 meeting involving
Dr. Miles and other DoDEA officials to address the matter. We found that on the evening
following the meeting at DoDEA Dr. Miles traveled from Washington, DC, to Germany, to
speak at the Bamberg High School commencement exercises. She traveled on an upgradeable
ticket on United Airlines even though a lower airfare was available. CWT noted that the lower
fare was declined because Dr. Miles wanted an upgrade.

         We found that in July 2009, Dr. Miles traveled on official business from Las Vegas,
N         to                Pennsylvania. CWT's booking notes for her flight showed CWT
notified                  that a lower Government fare was available for the travel. The EA
dec                             fare and advised CWT that Dr. Miles had to be on the selected
flights. We found no evidence to indicate that Dr. Miles' need to be on the selected flights was
based on reasons other than convenience - be it travel schedules, issues relating to layovers or
total travel time, or other similar matters. Regardless, the JTR prohibits scheduling travel
primarily for the convenience of a traveler. Further, the JTR requires advance authorization and
justification for the use of non-contract air service. We found no evidence of such justification
or authorization being provided or issued.

        We also found that Dr. Miles traveled occasionally on official business from a leave
location       from her PDS, in Arlington, Virginia. On one occasion, for example, relating to
the                      and her need to travel on official business from Las Vegas, Nevada, to
N                        was aware ofthe TDY requirement before depat1ing her PDS for Las
Vegas, hel' leave location. The Government incurred additional costs in connection with
Dr. Miles' travel from her leave location, as opposed to her PDS, to Germany (the initial landing
point for Dr. Miles' international flight). Moreover, the travel leg from Denver, Colorado, to
Munich, Germany, was booked on an upgradeable ticket with United Airlines.

         The JTR provides that when an employee is required to travel on official business and
departs from a leave location away from the employee's PDS, if the employee knew ofthe TDY
requirement before depat1ing on leave, she is reimbursed only actual travel expenses not
exceeding the constructed round-trip cost between the PDS and the TDY location. Additionally,
City-Pair fares are not authorized for use to and from the leave location ifthe TDY requirement
were known before leave is begun. Fut1her, per diem expense reimbursement is limited as well
to that for roundtrip travel between the PDS and TDY location.

        The JTR requires a Govemment traveler on official business to exercise care and
prudence in incurring Govemment travel expenses. The JTR additionally requires that City-Pair
aitfares be used for transpot1ation where offered. While the JTR authorizes exceptions to the use
of City-Pair fares under specific enumerated conditions, it requires that the specific authorization
and justification be shown on the traveler's travel orders. Appendix P ofthe JTR expressly
prohibits a traveler from choosing an air catTier based on personal preference or convenience,
frequent flyer clubs, or other reasons.

       The JTR and FMR provide that a traveler is personally responsible for additional
expenses to the Govemment accrued by not complying with the Govemment's travel and

                                                                                                       b(6}
                                  FOR: OFFICIAL USE ONU!                                               b(7}{C)
H09Ll12622206                                                                              49

transportation policy, and that the traveler is responsible for preparing initial authorizations and
post-trip vouchers using DTS.

        It is uncontroverted that Dr. Miles did not prepare her own travel authorizations and post­
travel vouchers. Additionally, we detennined that she pennitted and encouraged_ to
schedule travel in a manner to maximize the opportunity for Dr. Miles to obtain u~able
tickets. We conclude Dr. Miles failed to exercise prudence in official business travel on the
Govemment's behalf, traveled for official business on flights ticketed with fares other than City­
Pair or the otherwise lowest available Govemment fare, in order to obtain upgrades, in violation
ofthe JTR, the DoD FMR, and DoD policy on the use ofDTS for official travel.

Dr. Miles Response
            I




        Dr. Miles wrote that all of her travel alTangements were made b~, an employee
with nearly a decade's worth of experience navigating the Govemment'~~rocess and its
rules and regulations.

         Dr. Miles's asseliion is consistent with other witness testimony. However, as noted in
the Standards section above, the DoD FMR provides that the traveler is responsible for preparing
initial authorizations, amendments, and post-trip vouchers using DTS. Accordingly, Dr. Miles,
n o t _ is responsible for her travel an·angements.

       _               estified that it had been made clear to her that Dr. Miles wanted to be
booke~ines and that she had been directed to schedule flights for Dr. Miles on
United Airlines. She testified she routinely argued with CWT representatives to ensure
Dr. Miles was able to obtain a flight in a fare category that was upgradeable. As a result she
stated she rarely booked Dr. Miles on a City-Pair fare.

        _         explained that when she scheduled Dr. Miles' travel using DTS she was able to
use DTS 1U a way to avoid less expensive, non-upgradeable flights. She stated she would check
flight availability in DTS every day until she was sure all flights on the cheaper airlines were
booked out, and added, "That's how I could get around it."

        After reviewing and carefully considering the matters presented by Dr. Miles and
reconsidering the complete record oftestimony, facts, and circumstances partiCUlar to the
allegation, we stand by our conclusion.

        D. Did Dr. Miles claim and receive per diem reimbursement for official travel in the
local commuting area of her Pemlanent Duty Station (PDS)?

Standards

       31 U.S.c. 3729, "False Claims"

        The Statute states that any person who knowingly presents or causes to be presented a
false or fraudulent claim for payment or approval is liable to the Govemment for a civil penalty



                                                                                                       b(6}
                                   FOR: OFFIClicitL US¥; OHLY
                                                                                                       b(7}(C)
H09Ll12622206                                                                             50


of not less than $5,000 and three times the amount of damages the Government sustained as a
result of the act.

        JTR, Volume 2, "Department of Defense Civilian PersOImel," dated June 1, 2009

        Prut H, "Local Travel in and ru'ound PDS or TDY Location," Paragraph C2400,
"General," provides that designated officials may authorize specified transportation expense
reimbursement incurred by a traveler conducting official business in the PDS or TDY local area.
Per diem reimbursement is not included in the specified expenses. The paragraph defines "local
area" as the area within the PDS or TDY limits and the metropolitan area around the PDS or
TDY area served by common carriers, and within the local community area ofthe PDS or TDY
area.

       Paragraph C4552-C.1.a, "Per Diem at the PDS," "Per Diem Not Allowed," prohibits the
payment of per diem for TDY within the PDS limits or at or in the vicinity ofthe employee's
residence from which the employee commutes daily to the official station, except as otherwise
authorized in Paragraph C4552-D.

       Paragraph C4552, "General Rules Regarding Per Diem," paragraph D, "TDY at Nearby
Places outside the PDS," provides that per diem is not authorized when an employee performs
TDY in the vicinity, but outside of, the employee's PDS, unless the employee is TDY for 12 or
more consecutive hours or overnight lodging is required.

       JTR, Appendix A, "Definitions and Acronyms," dermes "Permanent Duty Station," as
the employee's permanent work assignment location and the building or place where an
employee regularly reports for duty. Paragraph B.3 defines Arlington County, Virginia, as a
PDS.

       DoD 5500.7-R, "JER," dated August 30, 1993

        Section 2635.101 of the JER, "Basic obligation of public service," states that public
service is a public trust. This obligation is further described in Section 2635, Subprut G of the
JER, "Misuse of Position," which includes the following provisions:

        Section 2635.704(a), "Use of Government propelty," states, "An employee has a duty to
protect and conserve Government property and shall not use such propelty, or allow its use, for
other than authorized purposes." Consequently, employees have an affinnative responsibility to
conserve resources.

       Section 2635.704(b) (1), "Definitions," states that Govemment propelty includes any
form of real or personal propelty in which the Govenuuent has an ownership, leasehold, or other
propelty interest as well as any right or other intangible interest that is purchased with
Govemment funds, including the services of contractor personnel.




                                  FOR OFFIOIz 4tL USE OnU!
H09L112622206                                                                            51


        DoD 7000.14-R, "DoD FMR," Volume 9, Chapter 4, "Transportation Allowances"

        Section 0408, "Local Travel in and around Pennanent or Temporary Duty Stations"
provides in paragraph 040801, "General," that local directives should clearly define the local
area in which transportation expenses may be authorized or approved for conducting official
business, and that when two or more installations are in close proximity, the senior commander
or senior service commander should detennine the local area.

     DoD Directive 4515.14, "Washington Local Commuting Area," dated
December 29, 1998

      Paragraph 2, "Applicability and Scope," states that the Directive applies to all
pemlanently assigned DoD employees in the National Capital Region (NCR).

        Paragraph 3.1, "Washington Local Commuting Area," defines the local commuting area
to include Arlington and Prince William counties and the City of Alexandria, Virginia.

       Paragraph 3.3 defines the NCR to include the County of Arlington, Virginia, and all
municipalities located in the County.



        During the course of our investigation, D o D E A ' s _ alleged that Dr. Miles
had traveled to Quantico, Virginia, on official business ru~d per diem for the TDY in
violation ofthe JTR. Quantico is located in Prince William county.

        We obtained a copy of Dr. Miles' travel voucher conceming her official travel to Mru'ine
Corps Base Quantico (Quantico). On March 24 and 25, 2010, Dr. Miles traveled on official
business to Quantico to visit the DDESS schools located on the base. Dr. Miles testified that her
travel was in keeping with her desire to visit all DoDEA schools or school districts during her
tenure as Director. Dr. Miles added she used a rental vehicle to travel between her home, in
Alexandria, Virginia, and Quantico. The approximate distance from Dr. Miles' home in
Alexandria to Quantico is 24 miles.

        Dr. Miles testified that she drove from her home to Quantico each moming, and retumed
to her residence at the end ofthe duty day. She added that she rented a car for the travel, rather
than drive her personal vehicle, because she was concemed about her vehicle's reliability for the
travel.

        Dr. Miles' travel voucher showed t h a t _ created the voucher on April 23, 2010, to
seek reimbursement for Dr. Miles' expenses assocIated with the official travel to Quantico. The
voucher included per diem expenses and charges paid by Dr. Miles for the rental vehicle. The
voucher sought reimbursement of $196.73 -- $127.73 for the rental car and $69.00 in per diem
expenses. DoDEA's Chief of Staff approved the voucher the same day and it was submitted for
payment. The voucher documentation contained an express waming against falsification of an
item in an expense account including a notice of a possible fine and criminal sanctions.




                                                                                                     b(B}
                                  FOR OFFIOIAL USE ONLY
                                                                                                     b(7}(C)
H09L112622206                                                                          52


       The disbursement records showed that the Government paid $127.73 directly to
Dr. Miles' Government Charge Card for the rental car expenses, and $69.00 directly to
Dr. Miles. DoDEA travel report records showed that DoDEA disbursed payment totaling
$196.73 in connection with Dr. Miles' travel voucher for the TDY.

        Dr. Miles testified that_ p r e _      the .travel
                                                      ed   voucher. She added that she did not
review or approve it. It was aPPr= by                       . Dr. Miles stated she was not aware
that she could not claim per diem expenses or t e trave In the local commuting area.

Discussion

        We conclude Dr. Miles claimed and was paid for per diem expenses to which she was not
entitled in violation of 31 U.S.C. 3729, the JTR, and the JER.

        We found t h a t _ submitted a claim for reimbursement in connection with
TDY travel fi'om her h~ndria, Virginia, to Marine Corps Base Quantico, Virginia,
on March 24 and 25,2010. Dr. Miles traveled to Quantico, then returned to her residence each
afternoon or evening. Her travel claim included rental car charges and per diem expenses
totaling $196.73. We also found that Dr. Miles did not personally review her travel voucher on
which she claimed entitlement to per diem reimbursement.

        The JTR authorizes reimbursement for travel (the rental car), but not per diem. Quantico,
in Prince William County, is within the Washington local commuting area, therefore, per diem is
not authorized to be paid unless the TDY lasts 12 or more consecutive hours or overnight
lodging is required.

        We determined that Dr. Miles was improperly paid for per diem expenses to which she
was not entitled. Her travel to Quantico was within the local Washington commuting area, and
did not require that she be on duty 12 or more consecutive hours or obtain lodging at Quantico.
We deternlined Dr. Miles was personally responsible and liable for the contents and accuracy of
her TDY claim. Accordingly, we conclude that Dr. Miles submitted a false claim for
reimbursement because she did not exercise personal oversight for the travel claim and did not
review it before it was submitted and approved.

Dr. Miles' Response

       Dr. Miles wrote that the travel claim in question was prepared and submitted
                the Chief of Staff. She added she "can only conclude




         As noted above, the DoD FMR provides that the traveler is responsible for preparing
initial authorizations, amendments, and post trip vouchers using DTS. Accordingly, Dr. Miles,
n o t _ is responsible for her travel voucher.


                                                                                                   b(8}
                                 FOR OFFI8I~\L USE ONu{                                            b(7}{C)
H09L112622206                                                                            53

        After reviewing and carefully considering the matters presented by Dr. Miles and
reconsidering the complete record of testimony, facts, and circumstances particUlar to the
allegation, we stand by our conclusion.

       E. Did Dr. Miles claim to be in duty status while on atmualleave?

Standards

       31 U.S.C. 3729, "False Claims"

       The standard set forth in Section D, above, applies.

       DoD 5500.7-R, "JER," dated November 29,2007

       The standards set forth in Section D, above, apply.

       DoD 7000.14-R, "DoD FMR"

         Volume 8, Chapter 2, "Time and Attendance," provides that timekeepers shall ensure that
employees attest to the accuracy ofthe current pay period's time and attendance. Such
attestation requires the employee's written or electronic signature or initials affirming the
correctness oftime and attendance data.

       Paragraph 020210, "Temporary Duty (TDY)," requires that an employee document the
hours worked and hours of leave on the time and attendance document for the pay period during
which the employee is TDY.

        Paragraph 020302, "Celtification of Absences," provides that employees shall initial or
sign for absences from duty or submit an approved application for leave.

        Paragraph 020303, "Verification of Leave Charges," requires employees to confion
officially each leave charge, except for administrative leave, absence without leave charges,
suspension, or holiday absences.



        During the course ofthe investigation, D o D E A ' s _ infonned us that time and
attendance records for Dr. Miles indicated she may have ~ on duty status when she
was on annual leave in conjunction with TDY. The pay period in question related to Dr. Miles'
travel to Japan to attend DoDEA educator conferences.

        We obtained travel records and Dr. Miles' time and attendance record relating to
Dr. Miles' travel to Japan from May 18 to May 29,2009. On May 18, 2009, Dr. Miles traveled
to Japan to attend the DoDEA-Pacific Superintendents' Meeting scheduled for May 19-20,2009,
and to conduct site visits on May 21-22, 2009, at DoDEA's schools located in Yokosuka, Japan.
Additionally, Dr. Miles was invited to attend a Component Commanders' Conference in Tokyo
scheduled for May 27,2009.



                                                                                                   b(6)
                                  FOR OFFIGfohL USE ONU:
                                                                                                   b(7}(C)
H09L112622206                                                                                       54

        Dr. Miles testified she took annual leave in conjunction with her official business in
Japan from May 25-29,2009. During that period, she retumed from leave to official duty on
May 27,2009, to attend the Component Commanders' Conference. Dr. Miles resumed annual
leave on May 28,2009, and departed Japan on May 30,2009.

       Dr. Miles testified_ prepared the travel voucher for the trip. Dr. Miles' travel
voucher showed that she c1:d' per diem or lodging expense reimbursement for May 18
through May 21,2009, and again on May 27,2009, when she attended the Component
Commanders' Conference. TIle travel voucher showed that Dr. Miles claimed annual leave on
May 23-May 26,2009, and again on May 28-29,2009. 29 In addition to lodging and per diem,
Dr. Miles claimed expenses for taxi fare totaling $160.55. Dr. Miles' travel voucher also showed
she was paid per diem expenses totaling $339.50 for May 30,2009, her travel day for retum to
the United States.

       On August 6,2009, D o D E A ' s _ reviewed Dr. Miles' travel voucher,
approved it, and submitted it for paym~el records show Dr. Miles' voucher was paid
on August 13, 2009.

       Dr. Miles' time record for the 2-week pay period of May 24 through June 6,2009,
showed that Dr. Miles claimed duty status the entire period, except for the Memorial Day
holiday on May 25,2009.

        Dr. Miles testified t h a _ prepared her time records. She stated that she did not
cel1ify her time records at the hme, and only began doing so a f t e r . left DoDEA for a new
Govemment position. 30

Discussion

         We conclude Dr. Miles claimed on her time and attendance record that she was in a duty
status, rather than on a11llualleave for 3 days in May 2009. We found that while traveling to
Japan on official business, Dr. Miles took annual leave in conjunction with her trip. Dr. Miles
testified she was in a leave status on May 26,28, and 29,2009. However, Dr. Miles' time record
did not reflect this change in status and Dr. Miles was not charged leave. We also found that
Dr. Miles did not prepare or self-certify her time records at the time this occurred.

       Volume 8, Chapter 2, ofthe FMR requires employees to submit accurate time and
attendance records and to accurately account for TDY time as being on duty or in leave status.
Employees are obligated to verify that the information submitted on their time and attendance
records is correct, and that leave charges are accurate.

       We detemlined that Dr. Miles did not exercise her responsibilities to review her time
records and cel1ify them as being con'ect and accurate. As a result of her failure to do so, she

29May 23-24, 2009, was a weekend. May 25, 2009, was Memorial Day. However, Dr. Miles was obligated to show
her status as being on leave on her travel voucher to avoid receiving payment for lodging and per diem expenses
during that time.
JO_leftDoDEA in July 2009.


                                      FOR: OFFI0I2*rL USE ONLY                                                    b(6}
                                                                                                                  b(7}{C)
H09L112622206                                                                           55

claimed and was credited for being on duty status on May 26,28, and 29,2009, days on which
she took personal leave.

Dr. Miles' Response

        Dr. Miles enclosed with her response a memorandum for the record, dated July 31; 2009,
that recorded t h a t _ was aware that Dr. Miles took leave in conjunction with my to Japan
in May 2009. Sh~nclosed copies of her itinerary and travel orders that reflected she would
be on leave for the                                             .          she did not have to
recheck the work

        We note that Dr. Miles is responsible for the accuracy ofher time and attendance records.
We found that Dr. Miles had two 0ppoliunities to ensure that her records for the pay period in
question were accurate: first, when her time card was prepared and submitted; and second, after
her leave and earning statement reflected she was not charged for the days of leave at issue.
Although Dr. Miles believed she did not have to recheck the work of her subordinates, the
responsibility for accuracy of her records remained with her.

        After reviewing and carefully considering the matters presented by Dr. Miles and
reconsidering the complete record of testimony, facts, and circumstances particular to the
allegation, we stand by our conclusion.




                                  FOR: OFFfCiz'tL USE ONLY                                          b(6}
                                                                                                    b(7}(C)
H09Ll12622206                             56




                                               b(8}
                fOR OffI81i'tL USE ONLY
                                               b(7}{C)
H09Ll12622206                           57




                FOR: OFFiCmL USE ONLY        b(6}
                                             b(7}{C)
H09Ll12622206                            58




                FOit OFF1ClAL USE OnUf        b(8}
                                              b(7){C)
H09Ll12622206                            59




                FOlt OFFfCIAL USE OHLY        b(6}
                                              b(7}{C)
H09Ll12622206                           60




                                             b(6}
                FOR OFFlOIAL USE ONLY        b(7}{C)
H09L112622206                           61




                                             b(6}
                FOR OFFICIAL USE OnLY
                                             b(7}{C)
H09Ll12622206                             62




                FOR OFFICi2'\b USE ONUf        b(6}
                                               b(7}{C)
H09Ll12622206                          63




                FOR OFFICML USE ONLY        b(6}
                                            b(7}{C)
H09Ll12622206                              64




                                                b(6}
                FOR: OFFiCftltL USE ONLY        b(7}{C)
H09L112622206                                                                           65




       G. Did Dr. Miles engage in conduct that was unprofessional. abusive. or otherwise not in
keeping with standards of conduot expected of Govenunent employees and members ofthe
Senior Executive Service?

Standards

       5 U.S.C. 3131, "The Senior Executive Service"

       5 U.S.C. 3131 established the Senior Executive Service "to ensure that the executive
management ofthe Govenunent of the United States is responsive to the needs, policies, and
goals ofthe Nation and otherwise is of the highest quality."

       DoD 5500.7-R, "JER," dated August 30, 1993

        Chapter 12, "Ethical Conduct," states that DoD employees should consider ethical values
when making decisions as part of official duties. In that regard, the Joint Ethics Regulation sets
f011h primary ethical values of ''faimess,'' "oaring," and "respect" as considerations that should
guide interactions among DoD employees. It elaborates on those characteristics as follows:

       • 	 Faimess involves open-mindedness and impartiality. "Decisions must not be
           arbitrary, capricious, or biased. Individuals must be treated equally and with
           tolerance."

       • 	 Caring involves compassion, oourtesy, and kindness to "ensure that individuals are
           not treated solely as a means to an end."

       • 	 Respect requires that employees "treat people with dignity. Lack of respect leads to a
           breakdown of loyalty and honesty."



                                                                                                 b(6}
                                  FOR OFFFCIAL USE OULY                                          b(7}{C)
H09Ll12622206                                                                              66


        OPM "Guide to Senior Executive Service Qualifications," (Iated October 2006

        The Guide sets forth essential leadership qualifications and underlying competencies for
members ofthe Senior Executive Service within the Federal Government. The introduction to
the Guide states that leaders must be able to apply "people skills" to motivate their employees,
build partnerships, and communicate with their customers. The Guide establishes leadership
competencies identifying the personal and professional attributes critioal to success by SES
employees. Additionally, the Guide identifies the following five Executive Core Qualifications
(ECQs) for SES personnel: Leading Change, Leading People, Results Driven, Business
Acumen, and Building Coalitions.

        Appendix A to the Guide sets forth the underlying leadership competencies that
demonstrate each ECQ. The "Leading People" qualification requires competence in managing
and resolving conflict, as well as in creating a culture that fosters team commitment, spirit, pride,
and trust. Additionally, Appendix A expressly defines critical leadership competencies to
include treating others with courtesy, sensitivity, and respect, showing consistency in words and
actions, and modeling high standards of ethics.



       The incoming complaints alleged that Dr. Miles engaged in offensive behavior that was
intimidating, hostile, and harassing to DoDEA employees.

        As Director of DoDEA, Dr. Miles visited DoDEA's Areas, school districts, and schools
to inspect facilities, confer with educators and administrators, attend DoDEA conferences, and
meet with military leaders and parents. Dr. Miles also met in smaller settings with DoDEA
educators, administrators, and leaders. In many instances, whether at DoDEA conferences or at
meetings attended by DoDEA employees and members ofthe public, Dr. Miles had the
0ppoliunity to make oral comments.

         Numerous witnesses reported that Dr. Miles used inappropriate speech, vulgar
expressions, and profanity in addressing people individually or in group settings. Additionally,
witnesses testified that on several occasions Dr. Miles addressed groups of educators in a manner
and using words that conveyed a racial animus against whites and, particularly, white males and
in favor of minorities. Witnesses testified that Dr. Miles would be unduly coarse and harsh in
her speech, particularly in smaller group settings or in one-on-one meetings. Several witnesses
testified that Dr. Miles used profanity including, for example, the f-word. Other witnesses
testified that Dr. Miles did curse, but did not recall her ever using the f-word. Dr. Miles denied
doing so. She testified that she cursed rarely and, if she did, she would use a word such as "hell"
to describe her frustration with a situation. She stated she did not curse at people.

        TIle former Area Director for DDESS stated that in her experience with Dr. Miles, she
heard Dr. Miles use the "f-word" and other curse words regularly. She found Dr. Miles; speech
to be coarse, inappropriate, and not consistent with core values expected of a senior Government
leader in DoDEA.




                                   FOR OFFtClA:L USE ONLY
H09Ll12622206                                                                            67


         The Area Director of DoDEA Pacific testified that Dr. Miles Hloves the f-word. She uses
it quite a bit." She added that she did not like Dr. Miles cursing all the time. She stated that in
one meeting she attended with Dr. Miles in Korea, she made a notation in her personal notes for
each time Dr. Miles cursed. She added she stopped counting after Dr. Miles cursed for the ninth
time.

        The Area Director of DoDDS-Europe testified that she heard Dr. Miles use Hpretty mild
curse words" on occasion, that Dr. Miles peppered her speech with l'that kind of language," and
had done so in front of DoDEA employees. She added she had not heard Dr. Miles use such
language in front of military personnel, only DoDEA employees. She also testified that
Dr. Miles swore during a telephone call she had with her and, while she found Dr. Miles speech
to be unprofessional, it did not particularly bother her. The Area Director added, however, that
she had never spoken in such a maImer to any ofher employees.

        Mr. Kelly testified that Dr. Miles has used I'a lot of profanity." He added that while
Dr. Miles may have used the f-word in general terms, he did not recall her ever directing the
word at any particular person. He testified that he had not observed Dr. Miles use profanity in
larger group settings. Mr. Kelly stated he had heard stories from other employees that Dr. Miles
cursed in large meetings, but he had only observed her use such language in small settings.

       D o D E A ' _ testified he had observed Dr. Miles say some "salty things,"
including the occ~. He added that such use would generally be under her breath
and not directed at any person in particular, and would be in the vein of asking, "What the 'F' is
going on? What happened?"

        DoDEA                                   testified that Dr. Miles' language is vulgar and
that she puts up very                            Dr. Miles seemed not to be concerned about
who her audience was in terms of her language choice. The f o n n e r _ stated
that in addition to using vulgar language, Dr. Miles' speech was ina~ed that
during a discussion she had with Dr. Miles about an employee's suitability to work on a specific
project, Dr. Miles made inappropriate comments           the           at a volume that could be
heard by Dr. Miles' entire staff. According to the                      Dr. Miles said:

       That woman is out of her mind. She's insane. The best thing to do is get rid of
       her ass. She needs to be fired. She suffers from all sorts ofmental illness. You
       know she's on medication. You know she's taking dntgs for this. She's unstable.

      The f O l U 1 e r _ acknowledged that while Dr. Miles had a ceitain
amount offi'eedom~nd her to be verbally abusive to her staff.

                                     testified that he had heard Dr. Miles use "swear words" at
times.                   was           in a room oftntsted people with whom she works, such as
Mr. Toth,                 and himself. He described the context of such word choice as usually
involving·                 may have gone not well in a district, t h a su
                                                                        iierintendent
                                                                             i i t may have
done, or that a general officer may have complained about. The                        described
Dr. Miles' use of curse words as not being directed at patiicular persons, ut, lllstead, as



                                                                                                      b{6}
                                  FOR: OFFfCIAL USE ONLY                                              b{7}{C)
H09L112622206                                                                            68


adjectives or adverbs. He noted that Dr. Miles would swear at times or say something such as,
"They're fucking idiots. Why don't they do this?"

       _                   who initially met Dr. Miles during her December 2008 visit to
UNLV~akfast with Dr. Miles and her friend during the first Virtual School
meeting between DoDEA and UNLV, in Philadelphia in July 2009. He described Dr. Miles as
being foul-mouthed. He testified that he was surprised by her language and found it to be odd.
He added that his joke about it was, "If she hasn't said the 'F' word it's because she hasn't
fmished her sentence yet."

       _                            who was involved in the University's Virtual School contract,
testifie~sed profanity, for example, at the Philadelphia Vidual School
meeting. He added he also participated in a meeting with Dr. Miles in which he found her to be
extremely rude and mean. He stated that the meeting in question, which involved a contractual
dispute between DoDEA and UNLV, was the most bizarre meeting he had ever attended in his
life. He added he would "retire tomorrow" if he had to attend another meeting like it. The
_                testified that Dr. Miles b e r a t e d _ , spoke to her like a third
~er she would go on C.Span an~ible. He added that
DoDEA's procurement staff had to stop the meeting temporarily.

       _                        testified that she traveled to DoDEA headquarters in the spring of
2010, ~ UNLV's contracting officer, at DoDEA's requestto meet with
Dr. Miles. 34 She stated that Dr. Miles actually met the UNLV members at the entrance of
DoDEA's headquarters and escolied them into the building. She noted that Dr. Miles was
gracious, pleasant, and congenial. She added that, after a wait of about an hour, the meeting
began. She testified that after the discussion began, Dr. Miles "unleashed" on her. She stated
that in her professional career she had never been spoken to in the way Dr. Miles spoke to her
during the meeting. _                          testified that when she responded to a comment by
Dr. Miles and stated~a factual elTor, Dr. Miles looked at her, closed her
notebook, and walked out of the meeting and did not return.

       T h e _ characterized Dr. Miles' comments in terms ofthe relative
level ofvitr~ale of 1 to 10. Theiiiiiliiiiiiiii described the Dr. Miles
who unleashed on her in the meeting and the Dr. M~d her into the building as
"two different people."

        The Area Superintendent for DDESS testified that Dr. Miles improved on her language
choices by the end of2009 and the beginning of 2010, but beforehand it had been "coarse, very
coarse." She described Dr. Miles' speech as uncalled for and very unprofessional. She recalled
a particular telephone conversation with Dr. Miles, in which Dr. Miles yelled and swore at her.
She described the conversation as follows, "Every other word was 'F this' and 'F that.' And I've
never been spoken to like that, ever. And there was no point in arguing with her. It wasn't true
what she was saying, but you don't argue with it."




                                                                                                     b(6)
                                  FOR: OFFICIAL USE OHVf                                             b(7){C)
 H09Ll12622206                                                                                           69


        The DDESS Area Superintendent testified that Dr. Miles contacted her the following day 

 and apologized, stating she "kind of got out of control." She added that Dr. Miles had used the f­

 word on other occasions, which she [the Area Superintendent] found to be totally unprofessional. 


       Witnesses described an incident in February 2009, at DoDEA's Worldwide Counselors 

Conference or Worldwide Principals Conference, in Leipzig, Gennany, in which Dr. Miles 

engaged in public conduct that was variously described as "highly unprofessional," 

"outrageous," and "awful. ,,35 


        The Area Director, DoDEA-Pacific, testified she had never been so embarrassed about a
boss as she was during a video teleCOnference!lTCbetween Dr. Miles and several DoPEA
employees, located in Leipzig, and DoDEA's              and several of his staff members, in
Arlington, Virginia. She stated that she had never eard such foulla11guage as she heard then,
and added that Dr. Miles' conduct was "so unprofessional and so negative that if I had been he
and been an IT person, I'm sure something would have happened with the [VTC] system and I
would not have listened to it anymore." She added that what she observed was "not anything
that any superior should ever do to anybody, let alone somebody who is trying to do what
they've been asked to do. ,,36

                                           DoDEA-Pacific also attended the Leipzig conference
and was                                     . Miles and iiiiiiiiii~ She testified that the
experience was the worst she had seen with Dr. Miles~ed the VTC as_oncemin
certain IT issues affecting the conference. She stated that Dr. Miles "lambasted"
used curse words, and effectively threatened job tennination if similar IT difficultIes appened
again. She added that Dr. Miles' conduct, which took place before DoDEA employees and a
union representative, was highly unprofessional for a leader such as Dr. Miles.

         DoDEA'_ testified he could not recall much about the Leipzig matter. However,
he testified that as~of his experiences with Dr. Miles, he approached each day at work as
if he were in almost a "Sybil-type relationship.,,37 He stated that on some days Dr. Miles was
extremely nice and very personable, and on others he would go to a meeting where "it was
almost like lighting a stick of dynamite." 38

           _         testified that he had heard Dr. Miles use what he described as "light" curse
words, ~" and "shit," and he did not recall her using the f-word. He noted that he
could not recall Dr. Miles looking directly at him and cursing. He described the context as
Dr. Miles cursing more at "an initiative," or an "intangible object." He stated that he noticed in

35   The conferences were back-to-back, February 1-6,2009.
36The Area Director, DoDEA-Pacific, also testified that it seemed to her Dr. Miles did not care who else was with
her or heard what she said at the time.
37 Whenasked,..- confirmed that his reference was to the well-known character from the book by the
same name, Sy~ treated for multiple personality disorder).
                                                                in DoDEA testified similarly, that in her experience
                  was                   were                           She stated that Dr. Miles would try to be on
best behavior after she had been reprimanded for foul language or where she was being observed, and that in private
settings that was not the case. She added that Dr. Miles used foul language and regularly brought up race issues.

                                                                                                                       b(6}
                                        FOR OFFIOiAL USE OHV[                                                          b(7}(C)
H09Ll12622206                                                                                              70


the spring of 2009 that she no longer cursed or yelled. Instead, the pitch of her voice would go
up and she would comment that her blood pressure was going up.

         _                described Dr. Miles' communication style as being equivalent to using a
bullwh~ end result that, in and of itself, is good. He described the style as "fear and
intimidation that sometimes attains - gets everyone to the goal versus leadership." He added that
while there are times when harsh discipline or harsh words may be required, discipline should be
targeted. He noted that Dr. Miles threatened adverse employment consequences in dealing with
employees' actions and used the following metaphor to describe its effect:

         It'd be the equivalent offiring a gun at the wall and the gun leaves, you know, a
         half-inch hole. It's, it's different when, when you fire a Gatling gun at the wall.
         And the Gatling gun just sort of leaves an overarching image in everyone's mind;
         not even as disciplinary, more as, "You must achieve this goal or these are the
         actions that will be waiting for you if you don't achieve this goal."

        DoDEA's                                        testified that she had witnessed Dr. Miles
use foul language                        at                        . She stated that Dr. Miles did
not use the "f-word," but her language was inappropriate for the audience.

         Several witnesses testified about an inappropriate comment that Dr. Miles repeated on
many occasions in public meetings. The comment followed a story Dr. Miles told conceming a
life lesson she and her siblings leamed from her father, a retired Army veteran and Command
Sergeant Major. According to the witnesses, Dr. Miles would close her story by telling the
assembled people, variously, that ''the world does not revolve around your asshole," or "your
asshole is not the axis ofthe world." Dr. Miles often accompanied her comment by using the
index fmger of one hand and simulating a rotating or spitming motion above the palm of the
other hand. 39

        The former Area Director of DDESS stated that during Dr. Miles' first introduction to the
DDESS principals and assistant principals at a DDESS Principals Conference in Peachtree City,
Georgia, she used coarse language in a presentation before about 70 people. She elaborated by
stating that Dr. Miles made comments that - in her opinion - were disparaging to white
employees. She added that Dr. Miles made the comment to those employees that ''the world
does not revolve around your ass."

        DoDEA'_ testified he was at DDESS headqualters on separate business at the
time Dr. Miles a~e principals and assistant principals. He stated that Dr. Miles made
the graphic depiction, which he called the ''twirly,'' during her comments. He added that when
he el1tered the conference room, which was standing room only, he leaned over to one of his
colleagues and said, "I'll bet you a dollar she does the twirly." He stated that about 10 minutes
later, Dr. Miles did so. He added that he made a second bet with his employee that Dr. Miles
would not use the phrase "Old Sarge" during her comments. She did about 5 minutes after he
made the bet.

39For purposes of the remainder of this report, we refer to Dr. :Miles' hand motion in this report as the "graphic
depiction."


                                         ¥ent O¥¥ICIAL USE ONVI                                                      b(6}
                                                                                                                     b(7}{C)
H09Ll12622206                                                                             71


       T h e _ testified specifically that the graphic depiction meant, "The world does not
revolve aro~ ass," and that the author ofthat statement was Dr. Miles. He added that he
had heard Dr. Miles make the statement or had observed her make the hand motion between 8
and 10 times.

        The Area Director, DoDEA-Pacific, testified that the quote Dr. Miles uses in speeches
which she [the Area Director] most hates was "the world does not - your ass is not the axis ofthe
world." She added that Dr. Miles made that statement in a speech at which a 3-star general was
present, and when the general heard the statement he "looked straight down at his feet." When
asked if she recognized the graphic depiction, the Area Director responded that she did and
identified it as "the axis business."

        D o D E A ' s _ testified she heard Dr. Miles make the statement
that the world doe~ ass because Dr. Miles made that statement "all the
time." She noted she heard the comment several times in staifmeetings, and added, "I don't
know if axis was in there. I        the exact wording but definitely the A-word was in
there." When asked,                               confirmed that the reference to the"A-word"


       DoDEA's_testified that the statement, "the world doesn't revolve around
your asshole," wa~ather's saying. He added:

       That's what she says. She'll say, "Old Sarge would say." She always says "Old 

       Sarge," which is her father, a retired Army sergeant major. She would always 

       say, "And Old Sarge would say your ass doesn't," -- you know. That's her
       father's.

        Mr. Toth, the Principal Deputy, testified that he was bothered by some of Dr. Miles'
coarse language to groups ofpeople. Mr. Toth added that he was a direct recipient of
Dr. Miles's statement about the world not revolving around one's ass. He stated the following
regarding Dr. Miles' speech:

       Shirley said a lot ofthings that she should have never said and the manner in
       which she said them, and she wouldn't take the best advice folks could give her
       that, you know, that's a message that's really a negative message. It's just not
       sitting well with people.

       The coarse language, on numerous occasions personally. and I know through
       other persons just as close or closer to Shirley than I was, there was over a period
       oftime a pull back from the coarseness ofthat language to the point where it just
       totally disappeared. Unf011unately it was too late because it was a part of her
       repel10ire through her initial movement around the globe as the DoDEA director
       and, you know, she said it in front ofthe parents, she said it in front ofteachers,
       she said it in front of administrators and commanders.

        Dr. Miles testified that she does not yell or curse when she is angered. She stated that she
cursed rarely, and never in a manner that was directed at any person. Dr. Miles testified that


                                                                                                       b(8}
                                                                                                       b(7}{C)
H09L112622206                                                                             72


when she is angry, she becomes "metered" in her speech. She added that she does not use the
"f-word" or the word "shit." She said she might use the word "damn."

        Dr. Miles testified that she uses a lot of "sargeisms" when she speaks. "Sarge" is
Dr. Miles' father. She testified that she told a story about "Old Sarge" to highlight an important
lesson about the importance of children and the need to focus on children. As Dr. Miles
described the story, her father asked her when she was a young child what the imaginary line was
that went through the center ofthe earth. She replied, the axis. She testified he then told her,
"Well, your ass is not the axis ofthe world." She added that whenever she or a sibling would go
to her father to complain about something, he would not speak, but would simply make the hand
motion meaning, "It doesn't rotate around you. You don't even come to me with whining."

        Dr. Miles testified that she stopped telling this story after complaints made their way to
her attention. She noted that no one complained directly to her. She added she has not done so
since she was the Principal Deputy. She testified she stopped because "a couple offolks said
they didn't like that I used the word 'ass. '"

Discussion

        We conclude Dr. Miles engaged in behavior that was inconsistent with the standards of
conduct expected of members ofthe Senior Executive Service as established by 5 U.S.C. 3131,
the JER, and OPM. MUltiple witnesses testified that Dr. Miles' behavior was inappropriate for a
senior Government official. Witnesses testified to their shock or surprise at Dr. Miles' speech
and provided specific instances where Dr. Miles used profanity or lost her composure while
interacting with her staff or other individuals extemal to the Department. DoDEA employees
and contractor representatives joked about her use of vulgar or inappropriate language. Several
witnesses also testified that Dr. Miles' speech improved in the early months of 2010.

         5 U.S.C. 3131 establishes general standards ofleadership for employees who are
members ofthe SES. The JER also outlines the expectation that govenunent employees should
treat others with dignity and respect. The OPM Guide requires members ofthe SES to apply
"people skills" to motivate their employees, build partnerships, and communicate with their
customers. SES employees are expected to be tactful, compassionate, sensitive, and respectful.

        We determined that Dr. Miles' comportment and speech were inconsistent with that
expected of a member ofthe SES. Witness testimony established that Dr. Miles used coarse and
vulgar speech in public and private settings, including curse words. Several senior DoDEA staff
members and individuals from UNLV involved with the Virtual Schools program were
extremely offended by her behavior. Dr. Miles' conduct was not indicative ofthe high standards
expected of a member ofthe SES.

Dr. Miles' Response

        Dr. Miles conceded that in small, informal settings she sometimes will use coarse
language, particularly among friends. She also conceded that she occasionally cursed, when
upset, in her cabinet meetings which were attended by only her Deputy, Chief of Staff, and Chief
of Finance. She denied however, using coarse language, to include the f-word, in public settings.


                                  FOR OFFIOIAL USE OUrrY
H09L112622206                                                                            73



        Dr. Miles noted that given her extensive speaking history, the lack of complaints about
her language, and the lack of any formal complaints by DoDEA employees argued against our
conclusion that she engaged in unprofessional conduct and speech by using vulgar language.
Dr. Miles also asserted that if the allegations ofvulgar language were true, she would not have
received the positive evaluations and performance awards she had received, and that her most
recent performance award of $15,000 was further evidence that she did not act inappropriately.

       We were unpersuaded by Dr. Miles' assertions that because the actions described by
witnesses were apparently never reported to her supervisors she did not act inappropriately. We
found that the preponderance of witness testimony described witnesses' shock or surprise at
Dr. Miles' speech. Additionally, witnesses provided specific instances where Dr. Miles used
profanity or lost her composure while interacting with her staff or other individuals external to
the Department.

        After reviewing and carefully considering the matters presented by Dr. Miles and
reconsidering the complete record of testimony, facts, and circtUnstances particular to the
allegation, we stand by our conclusion.

VI. CONCLUSIONS

         A. Dr. Miles advocated              of h e r _ as a teacher, as well as the
promotion or advancement of                       (t~crease resulting in an
increase in starting pay), in violatlOn           110 (b), "Employment of relatives;
restrictions," 5 U.S.C. 2301, "Merit system principles," and 5 U.S.C. 2302, "Prohibited
personnel practices."

        B. Dr. Miles provided an unfair
competitive position, Superintendent,
position, in violation of 5 U.S.C. 230         system principles," and 5 U.S.C. 2302,
"Prohibited personnel practices."

       C. Dr. Miles violated provisions ofthe JTR, Appendix P, "City-Pair Program," and the
JER by traveling TDY on flights that were ticketed with fares other than City-Pair fares or the
lowest available Government fares.

      D. Dr. Miles claimed and was paid for per diem expenses associated with TDY when
such TDY involved local travel in the DoDEA headquarters commuting area, in violation of the
JER.

       E. Dr. Miles olaim€{d and was paid for time in duty status during a period when she was
on annual leave in connection with TDY in violation of31 U.S.C. 3729 and the JER.




                                                                                                    b(6}
                                  FOR OFFIGIAL USE ONLY
                                                                                                    b(7}{C)
H09L112622206                                                                       74


       G. Dr. Miles engaged in behavior that was inconsistent with the standards of conduct
expected of members ofthe Senior Executive Service as established by 5 U.S.C. 3131, the JER,
andOPM.

VII. OTHER MATTERS




                                                                                               b(6}
                                FQR QFFlGlirL USE ONU:
                                                                                               b(7}{C)
H09Ll12622206                                                                     75


VII. RECOMMENDATIONS

       A. We recommend that the Under Secretary of Defense, Personnel & Readiness,
consider appropriate corrective action with respect to Dr. Miles, to include obtaining
reimbursement to the Govenunent of unauthorized travel expenses and per diem payments and
reconciliation of Dr. Miles' leave account.




                                                                                            b(6}
                               FOR: OFFtcIAL USE ONLY
                                                                                            b(7}{C)
